      IG’s
Semiannual Report
  to Congress




    September 2005
                                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                                     The Inspector General
                                                                     Washington, D.C. 20230


September 2005

The Honorable Carlos M. Gutierrez
Secretary of Commerce
Washington, D.C. 20230



I am writing to submit to you, in accordance with the Inspector General Act of 1978, this semiannual report outlining the
work and activities of the Ofﬁce of Inspector General for the 6-month period April 1, 2005, through September 30, 2005.
The act requires that we prepare this report twice each year to summarize our assessments of Commerce operations and
that you transmit it, with any comments you may wish to add, to Congress within 30 days of receiving it.

This report highlights issues that continue to warrant management’s attention. At the same time, I am pleased to relate to
you that a number of our reviews of departmental operations and activities have found that Commerce has made progress
in addressing some of its management challenges. For example, the Department has improved its ﬁnancial management
and maintained unqualiﬁed opinions on its consolidated ﬁnancial statements for the past 6 consecutive years. Likewise,
USPTO continues its efforts to address human resources management problems.

As you know, during this reporting period, we issued From Vision to Action, our ﬁnal work plan for 2005-2007. This is the
blueprint we intend to follow as we monitor the Department’s most critical activities and address statutory and other special
requirements over the next 2 years to fulﬁll the mandate of the Inspector General Act to prevent and detect fraud, waste,
and abuse. However, we always maintain an element of ﬂexibility in order to respond quickly to congressional requests
and emerging issues.

There is no doubt, for example, that Commerce will play an important role in the rebuilding and economic recovery of
the Gulf Coast region as the nation reconstructs that area of the country. We anticipate working closely with you and other
senior Commerce managers to ensure the funds allocated for that vast effort are properly and effectively used.

And ﬁnally, you can be assured that we maintain our deep commitment to assist the Department as it addresses these and
other top management challenges. I also extend my personal thanks to you and other Commerce ofﬁcials for joining us in
this endeavor in a spirit of cooperation and partnership. It is always my goal that the work performed and the reports issued
by the Ofﬁce of Inspector General serve to ensure that the Department fulﬁlls its many and varied roles both efﬁciently
and effectively.

Sincerely,




Johnnie E. Frazier
CONTENTS
IG’s Message to Congress.......................................................................................................................................................................1


Major Challenges for the Department ..................................................................................................................................................3
      Strengthen Department-Wide Information Security ..........................................................................................................................3
      Effectively Manage Departmental and Bureau Acquisition Processes ..............................................................................................4
      Enhance USPTO’s Ability to Manage and Operate Its Own Processes ............................................................................................5
      Control the Cost and Improve the Accuracy of Census 2010 ............................................................................................................5
      Monitor the Effectiveness of NOAA’s Ocean and Living Marine Resources Stewardship ..............................................................6
      Promote Fair Competition in International Trade ..............................................................................................................................7
      Enhance Export Controls for Dual-Use Commodities ......................................................................................................................7
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel ....................................................8
      Continue to Strengthen Financial Management Controls and Systems.............................................................................................9
      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA.................9


Agency Overviews
      Economic Development Administration..........................................................................................................................................11
      Economics and Statistics Administration ........................................................................................................................................13
      International Trade Administration ..................................................................................................................................................15
      Minority Business Development Agency .......................................................................................................................................17
      National Oceanic and Atmospheric Administration ........................................................................................................................21
      Technology Administration .............................................................................................................................................................27
      United States Patent and Trademark Ofﬁce .....................................................................................................................................33
      Department-Wide Management .......................................................................................................................................................37


Ofﬁce of Inspector General ..................................................................................................................................................................41
      Ofﬁce of Investigations....................................................................................................................................................................42
      Tables and Statistics .........................................................................................................................................................................46
      Reporting Requirements ..................................................................................................................................................................53


Acronyms ...............................................................................................................................................................................................55


Types of OIG Work Products ..............................................................................................................................................................57
Inspector General’s
Message to Congress

When we began this semiannual period, our ofﬁce had a plan            my recent September 2005 testimony before the U.S. House of
for the work that would be done through the spring and summer         Representatives Energy and Commerce Oversight and Investi-
of 2005. Indeed, we were even preparing for the next 2 years          gations Subcommittee, I noted that procurement is particularly
and about to publish our 2005–2007 work plan, From Vision to          prone to waste, fraud, and abuse. My ofﬁce has overseen activities
Action. But, as so often happens, unexpected events altered our       related to hurricane relief and recovery before, and our evalua-
course in some ways. Congressional requests, natural disasters,       tion of the Economic Development Administration’s handling of
and the unpredictable nature of investigative activities required     the Hurricane Andrew assistance program in the 1990s provides
us to respond quickly.                                                valuable insight and guidance to help direct the response to Hur-
                                                                      ricane Katrina.
The very mission of the Ofﬁce of Inspector General requires that
we must expect the unexpected and incorporate an element of           Another prominent area of concern is the Department’s readi-
ﬂexibility in all our planning. I am proud to present this report     ness in the event of emergency. With thousands of employees
detailing the important work performed by the employees in this       in facilities around the world, Commerce must be prepared to
organization over the past 6 months. I continue to be humbled by      protect its people and its assets, come what may. In our report on
the dedication they exhibit as they endeavor to preserve the ideals   the state of the Department’s emergency preparedness, you will
of good, sound government, and to save taxpayer dollars, prevent      note that while the Department’s actions have greatly improved
waste, and combat fraud and abuse.                                    its emergency response capabilities, more needs to be done in the
                                                                      future, particularly in the categories of emergency planning and
In the 26 years since enactment of the Inspector General Act,         implementation guidance, oversight of bureau compliance with
audits, inspections, and investigations have consistently resulted    policies and procedures, and key security upgrades. We made more
in signiﬁcant return on the government’s investment in OIGs.          than a dozen recommendations of speciﬁc actions the Department
This return can be measured in a number of ways—direct money          should take to address the identiﬁed weaknesses.
returned to the U.S. Treasury and federal agencies, systemic im-
provements in programs and operations resulting in better delivery     In another effort, we surveyed 30 of the International Trade Ad-
of services to American taxpayers, and increased efﬁciency and ac-    ministration’s Commercial Service overseas ofﬁces to help identify
countability. During this semiannual period, our ofﬁce has fulﬁlled   any security vulnerabilities. We did ﬁnd issues to be addressed,
the mission of the act by identifying millions in savings, making     and we also determined that some important security upgrades
recommendations to improve programs, and pursuing those who           have not been handled in a timely manner. We recommended that
have betrayed the trust of their federal positions.                   management take quick action to address the security exposure and
                                                                      management issues and also fully implement recommendations
Our work during this period covered the wide range of the             from our previous assessment in 2000.
Department’s mission-critical activities. Continuing our emphasis
on acquisition management, we conducted an audit of procure-          During this semiannual period, we also concluded work stemming
ment and procedures at NIST and noted deﬁciencies in planning,        from the October 2004 request by 19 members of the U.S. House
legal review, and open competition, among other issues. We also       of Representatives to review whether the Bureau of Reclama-
examined the Census Bureau’s acquisition of the handheld comput-      tion undermined the environmental review process regarding the
ers critical to the 2010 decennial and found that shortcomings in     biological opinion issued by NOAA’s National Marine Fisheries
planning and management of this effort threatened the program’s       Service (NMFS) on a water project in California’s Central Valley.
success. On a more positive note, our follow-up audit on the litany   Our job was to identify what review process NMFS used and to
of problems associated with a major purchase in 2002 showed           determine whether NMFS followed its policies, procedures, and
NOAA has taken signiﬁcant steps to improve its overall acquisi-       normal practices for consultations when it issued the biological
tion procedures.                                                      opinion. This ofﬁce did not seek to evaluate the science involved,
                                                                      but rather the integrity of the process, and the ﬁndings were not
Our continued oversight of procurement and acquisition will be        favorable. We determined that the NMFS southwest regional ofﬁce
particularly critical as Commerce’s bureaus increasingly play es-     did not handle the consultation for the opinion the way it normally
sential roles in rebuilding and safeguarding economic infrastruc-     handles such procedures, and it failed to comply with two signiﬁ-
ture and assisting business recovery in the Gulf Coast region. In     cant management controls in its usual review process. Our ﬁndings



September 2005/Semiannual Report to Congress                                                                                          1
IG’s Message to Congress




emphasize how critical it is for NOAA to have a meaningful and      other important challenges facing Commerce. Meeting the goals of
open process that yields sound science and maximum integrity of     the Inspector General Act requires ongoing collaboration in order
these types of opinions.                                            to provide the American people the highest quality and highest
                                                                    functioning government possible. I am conﬁdent that working
I look forward to continuing to work with Secretary Gutierrez,      together, we shall come as close as humanly possible to achieving
Congress, and senior Department ofﬁcials as they tackle these and   that lofty standard.




2                                                                             U.S. Department of Commerce/Ofﬁce of Inspector General
Major Challenges for the Department


This section highlights OIG’s Top 10 Management Challenges
that faced the Department at the close of this semiannual period.                    TOP 10 MANAGEMENT CHALLENGES
Each challenge meets one or more of the following criteria: (1) it is                 1. Strengthen Department-wide information security.
important to the Department’s mission or the nation’s well-being,
                                                                                      2. Effectively manage departmental and bureau acquisi-
(2) it is complex, (3) it involves sizable resources or expenditures,                    tion processes.
or (4) it requires signiﬁcant management improvements. Because
of the diverse nature of Commerce activities, these criteria some-                    3. Enhance USPTO’s ability to manage and operate its
                                                                                         own processes.
times cut across bureau and program lines. Experience has shown
that by aggressively addressing these challenges the Department                       4. Control the cost and improve the accuracy of Census
can enhance program efﬁciency and effectiveness; eliminate seri-                         2010.
ous operational problems; decrease fraud, waste, and abuse; and                       5. Monitor the effectiveness of NOAA’s ocean and living
achieve substantial savings.                                                             marine resources stewardship.
                                                                                      6. Promote fair competition in international trade.
                                                                                      7. Enhance export controls for dual-use commodities.
                                                                                      8. Enhance emergency preparedness, safety, and security
Challenge 1                                                                              of Commerce facilities and personnel.

STRENGTHEN DEPARTMENT-WIDE                                                            9. Continue to strengthen ﬁnancial management controls
                                                                                         and systems.
INFORMATION SECURITY
                                                                                     10. Continue to improve the Department’s strategic plan-
Safeguarding the numerous Commerce computer systems holding                              ning and performance measurement in accordance with
                                                                                         GPRA.
nationally signiﬁcant data is one of the Department’s most critical
challenges. Commerce undertook a major certiﬁcation and accredi-
tation (C&A) improvement effort during this ﬁscal year and has                    all national-critical systems and over half of the mission-critical
made considerable progress. However, OIG’s evaluations under                      systems had been improved.)
the Federal Information Security Management Act (FISMA) have
revealed signiﬁcant problems in C&A of some of Commerce’s                         Clearly, we saw noteworthy improvements in the packages we
national- and mission-critical systems.                                           reviewed. NOAA had signiﬁcantly improved risk assessments,
                                                                                  security plans, and testing, while Census’s security plans were
As we discussed in our March 2005 Semiannual Report, the                          more comprehensive. In light of the few packages available for
Department’s Chief Information Ofﬁcer issued a plan last Febru-                   review, however, and the testing deﬁciencies we still found in most
ary to eliminate the IT security material weakness by producing
acceptable quality C&A packages for all national-critical systems
and some mission-critical systems by ﬁscal year-end and for all
systems by the end of ﬁscal year 2006. It included schedules that
were developed in collaboration with the operating units and plans
of action and milestones to track progress. It also provided for in-
creased oversight by the Department and bureau CIOs. Given the
plan, our approach to the C&A portion of our FISMA evaluation
was to review all improved packages available by August 31. Using
this approach, we reviewed ﬁve improved C&A packages—three
from NOAA and two from Census.1 (The Department’s CIO
subsequently reported that by September 30, C&A packages for                      Federal agencies face numerous threats to the security of information
                                                                                  stored in computer systems, because attack methods are increasingly
                                                                                  sophisticated.
1
 Based on schedules provided by the Department’s CIO Ofﬁce in June, we expected   Source: May 2005 GAO report, Emerging Cybersecurity Issues Threaten Federal
more than 20 C&A packages to be available by August 31.                           Information Systems. http://www.gao.gov/new.items/d05231.pdf.




September 2005/Semiannual Report to Congress                                                                                                              3
Major Challenges for the Department




of the packages, we concluded that the Department’s C&A pro-               to ensure taxpayer dollars are spent effectively and efﬁciently and
cess has not yet improved to the point where authorizing ofﬁcials          that procurement laws and regulations are followed.
throughout the Department have sufﬁcient information about the
vulnerabilities remaining in their systems when it is time to make         In addition, how and when the Department and its bureaus plan
the accreditation decision.                                                and conduct acquisitions can determine whether or not projects
                                                                           of all sizes are successful. For example, OIG’s Ofﬁce of Systems
Last year we reported that USPTO had a good C&A process; as a              Evaluation surveyed the Census Bureau’s Field Data Collection
result, this bureau was not part of the C&A improvement effort.            Automation program, which is planned to provide ﬁeld staff with
Our review of two USPTO packages this year found shortfalls in             handheld mobile computers to gather information for the decennial
the continuous monitoring phase of C&A. Major changes had been             census. Census had originally intended to develop this program
made to these systems since they were certiﬁed and accredited in           internally with contractor support but determined in early 2004
2004, but the potential impact on the security of the systems had not      that it lacked the management and technical resources to develop
been assessed, nor had the need to reaccredit been evaluated.              the system in-house.

As part of our FISMA work during this semiannual period, we also           The Census Bureau’s late decision to use a contractor to handle the
examined USPTO’s IT service contracts to determine whether they            automation project and provide support services during the decennial
contained required security clauses and whether related security           and the initial slow pace in planning the acquisition put the program’s
requirements were being implemented. (See page 33.) We found               development at risk. We believe the delays in seeking an outside
most of the contracts do contain the security clauses, but since certain   contractor and in ﬁnding vendors could affect the preparation for
key requirements are not being properly implemented and enforced,          the dress rehearsal, although Census now reports that it has taken
background screenings for some contractor employees are conducted          actions to address shortcomings we identiﬁed. (See page 13.)
at too low a level and no contractor IT systems have been certiﬁed
or accredited. This could place restricted information at risk.            NPOESS. We recently initiated an audit of the award fee process
                                                                           being used in the National Polar-orbiting Operational Environ-
                                                                           mental Satellite System (NPOESS). The NPOESS system is be-
                                                                           ing funded by the Department of Defense and NOAA, with each
Challenge 2                                                                contributing half of the estimated cost of $8 billion. As such, this
                                                                           satellite system is one of the costliest activities undertaken by
EFFECTIVELY MANAGE                                                         NOAA.
DEPARTMENTAL AND BUREAU
                                                                           Follow-up on Flawed NEXRAD Power Source Acquisition.
ACQUISITION PROCESSES
                                                                           Our follow-up audit of NOAA’s efforts to address the problems
                                                                           we cited in our September 2003 report, Acquisition of NEXRAD
Commerce spends nearly $2 billion each year on goods and
                                                                           Transition Power Source Marred by Management, Technical,
services—roughly a third of its budget. It also relies more and
                                                                           and Contractual Problems (OSE-15676), found that the agency
more on contractor support to continue its mission-critical work.
                                                                           has for the most part taken the corrective actions it said it would
Adequate oversight of the Department’s acquisitions is essential
                                                                           in its action plan. Although some improvements are needed to its
                                                                           acquisition handbook, NOAA’s conscientious steps to bolster its
                                                                           procurement processes should help prevent problems in contract
                                                                           negotiation, review, and oversight that—in the NEXRAD procure-
                                                                           ment—ultimately added $4.5 million to project costs.

                                                                           Census Bureau IT Services Contracts. This semiannual report
                                                                           summarizes the ﬁndings of the second in a series of audits of
                                                                           Census Bureau IT services contracts. Our March 2005 semiannual
                                                                           report mentioned an audit of three task orders under an IT services
                                                                           contract in which we found $8.5 million of the $17.6 million
                                                                           charged to be questionable. In the current reporting period, we
                                                                           audited two task orders under another Census IT services contract.
                                                                           We found that the contractor had made more than $10.7 million in
                                                                           questionable charges to the government out of the total of $31.7
Commerce spends nearly $2 billion per year on goods and services in a      million billed. (See page 14.) We plan to continue our series of
variety of categories.                                                     audits of Census Bureau contracts and will report our ﬁndings in
Source: U.S. Department of Commerce, Systems Acquisition Division.         subsequent semiannual reports.



4                                                                                     U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                    Major Challenges for the Department




Challenge 3                                                          need to uphold merit system principles, establish human resource
                                                                     policies and procedures to guide decision-making, and ensure those
ENHANCE THE U.S. PATENT AND                                          policies and procedures are followed. In addition, the agency’s
TRADEMARK OFFICE’S ABILITY TO                                        HR staff needs appropriate training in the Standards of Ethical
                                                                     Conduct for Employees of the Executive Branch. (See page 35.)
MANAGE AND OPERATE ITS OWN
                                                                     It is imperative that USPTO bring stability to its human resources
PROCESSES                                                            operation and ensure that its employees have the appropriate skills
                                                                     and experience to perform the jobs to which they are assigned.
Our work at USPTO continues to focus on critical aspects of its
functioning as a performance-based organization as the agency        To its credit, the bureau has taken action to address the prob-
implements budget, procurement, and personnel operations that        lems OIG found in the past. In early 2005, the Ofﬁce of General
provide the ﬂexibility to adapt to changing market forces and meet   Counsel conducted an ethics training course for USPTO’s human
the needs of customers. Our previous work at USPTO assessed          resources department. Subsequently, USPTO split the position of
patent examiner production goals, performance appraisal plans        chief ﬁnancial ofﬁcer and chief administrative ofﬁcer into two
and awards, the agency’s move to its new headquarters complex,       positions, each with its own organization, and hired experienced
and reports of improper personnel practices. (See September 2004     human resources professionals to be OHR director and deputy
Semiannual Report to Congress, pages 38-40.)                         director, rather than continuing to rely on detailing other staff to
                                                                     those positions. USPTO also created a Comprehensive Human
This latter issue has been long-standing. Since 1999 we have re-     Capital Improvement Plan intended to address long-standing
ceived repeated complaints that management of USPTO’s Ofﬁce          problems in human resources.
of Human Resources (OHR) has allowed or encouraged unfair
personnel practices and activities that undermine the integrity      While we are pleased that USPTO has been receptive to our
of that ofﬁce and of USPTO in general. Our work in response          recommendations and has implemented numerous changes, the
to the complaints conﬁrmed numerous problems. Resolution of          problems we identiﬁed are serious and long-standing. The actions
these issues is particularly critical: USPTO has received author-    PTO has taken to date are strong steps in the right direction, but
ity to hire hundreds of examiners. It must have an effective HR      the ultimate resolution of these issues will require the sustained
operation that adheres to federal regulations, is guided by sound    commitment of senior management.
policies and procedures, and affords all employees the rights and
protections required by law.

During this semiannual period, we reemphasized this point to
senior Department and USPTO ofﬁcials, noting several issues
                                                                     Challenge 4
identiﬁed at USPTO that remain unresolved. These include the
                                                                     CONTROL THE COST AND IMPROVE
                                                                     THE ACCURACY OF CENSUS 2010

                                                                     At an estimated cost of more than $11 billion, the decennial
                                                                     census will be one of the most costly and critical operations the
                                                                     Department has ever undertaken. There are two ﬁeld tests and a
                                                                     dress rehearsal to be managed in addition to the actual census,
                                                                     so the Census Bureau and the Department face some formidable
                                                                     challenges in both controlling costs and improving the accuracy
                                                                     of the data collected.

                                                                     During this reporting period, we concluded a review of the bureau’s
                                                                     progress in planning and managing the automation of formerly
                                                                     paper-based ﬁeld data collection activities, scheduled for roll-out
                                                                     in the 2008 dress rehearsal. (See page 13.) Census expects the au-
                                                                     tomated process to improve data quality and operational efﬁciency
                                                                     and reduce overall decennial costs by as much as $900 million.
                                                                     The plan is to have a contractor handle the automation project and
                                                                     provide support services for more than 450 local census ofﬁces
                                                                     and 500,000 temporary ﬁeld staff at the peak of the decennial. But
                                                                     we are concerned that the contractor may not have enough time
                                                                     to adequately prepare for the 2008 decennial dress rehearsal, as



September 2005/Semiannual Report to Congress                                                                                          5
Major Challenges for the Department




                                                                            The agency may have to deal with the storms’ impacts on Gulf
                                                                            Coast aquatic ecosystems for many years to come.

                                                                            In addition to monitoring NOAA’s response to hurricane damage
                                                                            as a steward of marine resources, OIG plans to focus on a number
                                                                            of other NOAA activities in the future, which may include the
                                                                            Integrated Ocean Observing System and marine debris respon-
                                                                            sibilities.

                                                                            During this reporting period, in response to a request from 19
                                                                            members of Congress, we audited the National Marine Fisheries
                                                                            Service’s (NMFS) preparation of a biological opinion for Califor-
                                                                            nia’s Central Valley Project, one of the largest water projects in the
                                                                            nation. (See page 21.) We sought to determine if NMFS’ southwest
                                                                            regional ofﬁce, which issued the biological opinion, adhered to
                                                                            policies, procedures, and standard practices. We concluded that
                                                                            NMFS deviated from its established process for initiating the
A census worker with a handheld computer shows ofﬁcial identiﬁcation card   consultation and ensuring the quality of the biological opinion.
during a practice for the 2006 census test.
                                                                            We recommended that NOAA objectively evaluate whether the
Source: U.S. Census Bureau.                                                 regional ofﬁce’s questionable handling of the opinion impaired the
                                                                            opinion’s scientiﬁc integrity. We also made several recommenda-
mentioned previously. We note that Census has taken measures                tions to NOAA to ensure that future opinions are sound and have
to steer the project back on track, but have recommended Census             maximum scientiﬁc and procedural integrity.
develop a sound project plan that includes objective measures of
progress and intensive management oversight                                 We also continued our series of reviews of salmon recovery pro-
                                                                            grams during this semiannual period, auditing three more programs
We have initiated our review of the 2006 ﬁeld test beginning with           funded by NOAA’s Paciﬁc Coastal Salmon Recovery Fund. As
the address listing operation. Among other things, we are assess-           with the audits we detailed in our March 2005 semiannual report
ing the bureau’s progress in improving the accuracy of address              (pages 31-32), we questioned costs and noted some administra-
lists and maps and its partnership program, which is designed to            tive weaknesses.
improve the response of historically undercounted populations,
and its resource management and planning. Our objectives in this
assessment also include follow-up on our review of the 2004 test
and the problems we identiﬁed with data transmissions, technical
ﬁeld support, lister training, and various other issues.




Challenge 5
MONITOR THE EFFECTIVENESS OF
NOAA’S STEWARDSHIP OF OCEAN
AND LIVING MARINE RESOURCES

As the lead agency for marine resource protection, the National
Oceanic and Atmospheric Administration (NOAA) is charged with
not only monitoring the health of our nation’s ocean and coastal
resources but also administering a large number of civilian ocean
programs, and these responsibilities are likely to expand. NOAA
already is assessing a broad range of the recent hurricanes’ effects
on habitat and ﬁsheries in the Gulf—from testing for toxins in
seafood and Gulf waters to recording the diminished numbers and             Erstwhile inhabitants of the Florida Keys National Marine Sanctuary.
redistribution of native species and the damage to coastal wetlands.        Source: www.photolib.noaa.gov/sanctuary/sanc0201.htm.




6                                                                                       U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                           Major Challenges for the Department




Challenge 6
                                                                                        COORDINATOR FOR
PROMOTE FAIR COMPETITION IN                                                        INTERNATIONAL INTELLECTUAL
INTERNATIONAL TRADE                                                                  PROPERTY ENFORCEMENT
                                                                              To combat intellectual property violations and better coor-
The Department of Commerce is charged with promoting trade,                   dinate government efforts, a senior position was created
opening overseas markets to American ﬁrms, and ensuring compli-               within the Department of Commerce in July 2005. This
ance with U.S. laws designed to protect U.S. industry from unfair             ofﬁcial will serve as the head of the National Intellectual
competition from imports. It is also speciﬁcally tasked to address            Property Law Enforcement Coordination Council, coordi-
market access issues and barriers, unfair trade practices, trade              nate with relevant federal agencies, including the Justice
                                                                              Department, the U.S. Trade Representative’s Ofﬁce,
disputes with foreign ﬁrms, noncompliance with or violations of
                                                                              U.S. Customs and Border Protection, State, Agriculture,
trade agreements, inadequate intellectual property protection, and            and within the Department of Commerce, the Patent and
other impediments to trade. Commerce accomplishes these goals                 Trademark Ofﬁce and the International Trade Administra-
through the work of the International Trade Administration. During            tion. In addition, the coordinator will develop policies to
this semiannual period, we focused our efforts on the security status         help protect intellectual property rights, and enforce intel-
of Commercial Service’s overseas ofﬁces, which are responsible                lectual property laws, and implement strategies for promot-
for assisting U.S. exporters. Commercial Service maintains more               ing American intellectual property rights overseas.
than 150 overseas ofﬁces. We also began a full-scale review of
Commerce’s trade-related activities in China.
                                                                           is in progress now, and we will detail our ﬁndings in our March
                                                                           2006 Semiannual Report. As part of this inspection, we expect
                                                                           to address issues of coordination and cooperation among several
                                                                           Commerce bureaus with operations in China and management of
                                                                           the post’s ﬁve ofﬁces in Beijing, Shanghai, Guangzhou, Chengdu,
                                                                           and Shenyang. We will also address export successes, efforts in
                                                                           the area of intellectual property rights and market access, the new
                                                                           American Trading Center initiative, and other issues.

                                                                           Additionally, ITA has informed us that it is addressing issues identi-
                                                                           ﬁed in our previous reviews of posts. Our past reports highlighted
                                                                           problems with overstated or unveriﬁable export successes—a key
                                                                           measure of performance. Since that time, CS took several steps to
                                                                           improve reporting, such as the adoption of new reporting require-
                                                                           ments including the requirement to directly conﬁrm or verify the
                                                                           details of each export success, and appointing a quality control
                                                                           ofﬁcer, among others. We will continue to monitor this area and
The International Trade Administration provides constant information on    report on the Department’s efforts to resolve issues we identify.
nearly every aspect of international trade through easily accessible web
site pages.
Source: http://tse.export.gov.
                                                                           Challenge 7
We reviewed the Commercial Service’s overseas security program
to determine if the 30 CS ofﬁces located outside of an embassy             ENHANCE EXPORT CONTROLS
or consulate compound are in compliance with security standards            FOR DUAL-USE COMMODITIES
and whether sufﬁcient ﬁnancial controls were in place over funds
for security upgrades. The agency has made progress since a 2000           The Department’s Bureau of Industry and Security oversees the
OIG review revealed a number of troubling weaknesses, but we               federal government’s export licensing system for dual-use com-
found that CS needs to do more work to ensure those overseas               modities and technology and is charged with advancing U.S.
ofﬁces meet security standards and to conﬁrm exactly how much              national and economic security interests by enforcing those export
funding remains for upgrades.                                              controls. The primary goal of the licensing and enforcement sys-
                                                                           tem is to prevent hostile nations and terrorist groups who might
We also are continuing with our focus on the Department’s efforts          threaten global security from acquiring technologies and materials
to increase U.S. market opportunities and overcome trade barriers          that have both civilian and military applications by controlling
in difﬁcult foreign markets. An inspection of CS’ post in China            their export.



September 2005/Semiannual Report to Congress                                                                                                  7
Major Challenges for the Department




The National Defense Authorization Act (NDAA) for FY 2000               tiveness. Legislation to replace the expired Export Administration
directs the inspectors general of Commerce, Defense, Energy,            Act is essential to those efforts, because BIS’ regulatory authority
and State, in consultation with the directors of the Central Intel-     should be strengthened in order to achieve these goals. We will
ligence Agency and Federal Bureau of Investigation, to report to        continue to monitor BIS’ efforts to address our previous NDAA
Congress each year through 2007 on the adequacy of these export         recommendations.
controls and whether they are effectively preventing entities of
concern from acquiring sensitive U.S. technologies. The OIGs
have completed six reviews of export controls. Earlier this year
to meet NDAA’s FY 2005 requirement, Commerce OIG assessed               Challenge 8
BIS’ licensing process for chemical and biological commodities
to determine whether the process was timely and in compliance           ENHANCE EMERGENCY
with statutory and regulatory requirements. We also examined the        PREPAREDNESS, SAFETY, AND
status of recommendations from prior reviews and concluded that,        SECURITY OF COMMERCE
while action on some recommendations has not been completed,            FACILITIES AND PERSONNEL
BIS has made progress on a number of them since our last semi-
annual report. We are still doing the follow-up work and have not       OIG ﬁrst identiﬁed the Department’s emergency preparedness
veriﬁed any of BIS’ claims of recent progress.                          weaknesses in a 2002 review that revealed serious security vulner-
                                                                        abilities. Since then, we have reported on the Department’s efforts
To meet the NDAA’s FY 2006 requirement, Commerce OIG is                 to address the concerns raised in that report. We have continued to
examining whether current licensing and enforcement practices           spotlight areas where Commerce should apply resources to protect
are consistent with relevant laws, regulations, and national security   its 35,000+ employees and hundreds of facilities worldwide.
and foreign policy objectives with respect to exports to China.
In addition, we are evaluating the effectiveness of coordination
between the various federal agencies for China-related export
license applications that have been escalated in the dispute reso-
lution process.

There is no doubt that BIS must remain vigilant in enforcing the
nation’s dual-use export control laws to protect U.S. national
security, while at the same time, ensuring our economic competi-


    EXCERPT: EXPORT ADMINISTRATION
    REGULATIONS
    730.6 CONTROL PURPOSES. The export control provi-
    sions of the EAR are intended to serve the national secu-
    rity, foreign policy, nonproliferation, and short supply inter-
    ests of the United States and, in some cases, to carry out
    its international obligations. Some controls are designed to
    restrict access to dual use items by countries or persons
    that might apply such items to uses inimical to U.S. inter-
    ests. These include controls designed to stem the prolifera-
    tion of weapons of mass destruction and controls designed
    to limit the military and terrorism support capability of
    certain countries. The effectiveness of many of the controls
    under the EAR is enhanced by their being maintained as
    part of multilateral control arrangements. Multilateral export
    control cooperation is sought through arrangements such
    as the Nuclear Suppliers Group, the Australia Group, and
    the Missile Technology Control Regime. The EAR also
    include some export controls to protect the United States
    from the adverse impact of the unrestricted export of com-
    modities in short supply.                                           The members of the Department’s emergency response team are easily
    Source: www.access.gpo.gov/bis/ear/ear_data.html.                   recognizable in brightly colored vests.
                                                                        Source: OIG.




8                                                                                      U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                      Major Challenges for the Department




During this reporting period, we completed a follow-up assess-       dated location supporting the Department’s ﬁnancial management
ment of Commerce’s emergency preparedness status. Although           system. The Department has decided to consolidate CBS and its
the Department has dedicated signiﬁcant resources and attention to   associated feeders at the Ofﬁce of Computer Services in Spring-
emergency preparedness, our review noted the need for improve-       ﬁeld, Virginia. This will occur in a phased-in approach. The con-
ments in several areas, including Commerce-wide guidance and         solidation will achieve hardware standardization, reduce redundant
oversight for emergency preparedness, the risk assessment process,   responsibilities and data center costs, and position the Department
development and oversight of occupant emergency plans, security      for the next-generation ﬁnancial system. Further, the Department
for critical assets, and oversight of security guard forces.         will be in the best possible position to maximize long-term beneﬁts
                                                                     and support future upgrades with the least technological impact.
As a complement to our domestic review, we also surveyed the         This major system development will provide an additional chal-
Commercial Service’s 30 overseas ofﬁces that are located outside     lenge to the Department in maintaining its green score in ﬁnancial
of U.S. embassies or consulates to determine, among other things,    management on the President’s Management Agenda Scorecard.
whether (1) any security vulnerabilities exist, (2) upgrades are
timely, and (3) management tools and administrative controls
for the overseas security program and assessment process are
adequate. We found that some security vulnerabilities exist and      Challenge 10
that security upgrades are not always handled in a timely man-
ner. In addition, we found that emergency preparedness issues at     CONTINUE TO IMPROVE THE
overseas ofﬁces have not always been addressed and that there        DEPARTMENT’S STRATEGIC
is insufﬁcient oversight by headquarters managers and staff and      PLANNING AND PERFORMANCE
senior commercial ofﬁcers at posts to ensure that emergency
preparedness issues are adequately handled by the embassy or         MEASUREMENT IN ACCORDANCE
consulate regional security ofﬁcer.                                  WITH THE GOVERNMENT
                                                                     PERFORMANCE AND RESULTS ACT

                                                                     Collecting and reporting accurate performance data required by the
Challenge 9                                                          Government Performance and Results Act (GPRA) is a challenge
                                                                     for most federal agencies, and the Department of Commerce is
CONTINUE TO STRENGTHEN                                               no exception. It is imperative for the Department to have accurate
FINANCIAL MANAGEMENT
CONTROLS AND SYSTEMS

In recent years, the Department has improved its ﬁnancial man-
agement, as evidenced by achieving and maintaining unqualiﬁed
opinions on its consolidated ﬁnancial statements for the past 6
consecutive years, implementing Commerce Business Systems
(CBS), and substantially complying with the Federal Financial
Management Improvement Act. Still, there is more to be done.

Under the revised OMB Circular A-123, agencies must assess
internal controls over ﬁnancial reporting, document those controls
and the assessment process, and provide an assurance statement
on the effectiveness of internal control over ﬁnancial reporting
beginning in FY 2006. Reliable ﬁnancial reporting and effective,
efﬁcient program operations depend on strong internal controls.
OIG will continue to monitor a range of ﬁnancial management
issues, including Commerce’s efforts to implement the new A-123
requirements, improve internal ﬁnancial controls, and achieve
other operating efﬁciencies.

The Department also is in the process of working on a detailed
implementation plan consolidating several IT servers that process
ﬁnancial information at six locations into a centralized consoli-
                                                                          Source: Department of Commerce.




September 2005/Semiannual Report to Congress                                                                                          9
program measures and reliable data supporting these measures          Although the Department has substantially strengthened its
in order to determine whether programs are accomplishing their        performance reporting in the past few years, as evidenced in our
intended purpose.                                                     ongoing review of performance measurement at the Department,
                                                                      OIG reviews continue to identify the need for enhanced man-
OIG audits of performance measure reporting by some Commerce          agement controls. For example, a recent review of performance
bureaus have repeatedly identiﬁed the need to ensure that individu-   results reported by the Minority Business Development Agency
als who collect and use performance data understand what is being     for FY 2004 showed a number of instances in which success
measured. Prior audits also have consistently shown a need for        rates were overstated. The basic tenet of GPRA is that measuring
improved management controls over performance data, particu-          performance will inform funding decision-making and ultimately
larly where veriﬁcation and validation of information is required.    improve government programming and spending. Every Com-
The bureaus we have audited have generally made improvements          merce bureau should be reporting performance measures that
in response to issues raised, and the Department has established      are appropriate and understandable, and reported data should be
a process by which it will review each of the 115 performance         accurate and reliable.
measures over a 5-year cycle.




10                                                                              U.S. Department of Commerce/Ofﬁce of Inspector General
                                   ECONOMIC DEVELOPMENT
                                   ADMINISTRATION

                       Audit Recommends New York Economic
                          Development Organization Restore $1.1 Million

T
        he Economic
        Development
                             to Revolving Loan Fund
        Administration was
                                             Between 1979 and 1983, an Erie County, New York, economic development organization
established by the Public Works
                                                 received a $7 million EDA grant to establish a revolving loan fund (RLF). The organiza-
and Economic Development Act of
                                                    tion had been formed in 1970 by the New York state legislature to promote economic
1965 to generate new jobs, help retain
                                                      welfare for Erie County residents, primarily through job development but also through
existing jobs, and stimulate commer-
                                                         encouraging commerce and preventing economic deterioration. The grant required
cial and industrial growth in economically
                                                           $2,950,000 in total matching funds. The grantee provided a match of more than
distressed areas of the United States. EDA
                                                            $4 million.
continues to fulﬁll this mission under the author-
ity of the Economic Development Administration
                                                              A February 1989 OIG audit had revealed several problems with the develop-
Reform Act of 1998, which introduced the concept
                                                               ment agency’s use of RLF funds, but recommendations from that audit were
of Comprehensive Economic Development Strate-
                                                                resolved satisfactorily. Our recent ﬁnancial and compliance audit, covering
gies, a local planning process designed to guide the
                                                                the 3-year period from October 2000 through September 2003, sought to
economic growth of an area. Based on these locally
                                                                 determine the ﬁnancial status of the RLF, the propriety of the administrative
and regionally developed strategies, EDA works in
                                                                 costs charged to the fund, and whether the development agency had complied
partnership with state and local governments, regional
                                                                 with the grant’s terms and conditions and federal regulations. As of September
economic development districts, public and private
                                                                 2003, the agency had made 437 RLF loans totaling more than $70 million. Of
nonproﬁt organizations, and Indian tribes to help
                                                                these, 115 remained active and were either current, delinquent, or in default,
distressed communities address problems associated
                                                               with a total outstanding principal balance of more than $10 million.
with long-term economic deterioration and recent,
severe economic dislocations, including recovery
from the economic impact of natural disasters, the            Our Findings
closure of military installations and other federal
facilities, changes in trade patterns, and the              The development agency had maintained almost $1.7 million in excess cash.
depletion of natural resources. EDA provides               Federal  regulations require RLF operators to have at least 75 percent of RLF
eligible recipients with technical assistance,           capital loaned  out or committed at all times to achieve the goals of job creation and
as well as grants for public works and                 retention.  Development     agency ofﬁcials said that EDA had approved a revised capital
economic development, planning,                      utilization schedule,  submitted     in March 2000, which allowed the agency to maintain
training and research, and economic               more   than 25  percent  of its RLF   cash on hand. EDA said the approval was a mistake, and
adjustment.                                    the result  of an  oversight on   its part.

                                       The audit also disclosed that the organization had overstated loan commitments by more than
                                   $5 million for two consecutive reporting periods, gave ﬁve companies a total of nearly $1.3 million
                             in ineligible loans, and charged more than $352,000 in unallowable overhead costs and rental payments
                       against the grant. Additionally, the grantee had not submitted required plan certiﬁcations, properly described its
             loan servicing and operational procedures in its RLF plan, or thoroughly documented borrowers’ eligibility in loan ﬁles.




September 2005/Semiannual Report to Congress                                                                                             11
Economic Development Administration



Development Agency Response                                        Our Recommendations

Development agency ofﬁcials agreed that the organization had       We recommended that EDA require the organization to (1) restore
maintained excess cash and overstated its loan commitments.        to the RLF the roughly $1.1 million in principal balance that
However, they also stated that loans to eliminate the excess       remained in the ﬁve ineligible loans and the $352,058 in unal-
cash were made subsequent to the audit period and the method       lowable costs, (2) update its RLF plan to fully comply with EDA
for reporting loan commitments has been corrected. Ofﬁcials        guidelines, (3) submit required plan certiﬁcations, and (4) fully
disagreed that $1.3 million in loans were ineligible and submit-   document the RLF loan ﬁles. (Atlanta Regional Ofﬁce of Audits:
ted information they believe justiﬁes the loans. Ofﬁcials agreed   ATL-16533)
that personnel costs were arbitrarily marked up, rental payments
were made to an afﬁliated company, and loan ﬁle documentation
needed improvement.




12                                                                           U.S. Department of Commerce/Ofﬁce of Inspector General
                                     ECONOMICS
                                     AND STATISTICS
                                     ADMINISTRATION



T
        he Econom-
                                Slow Start for FDCA Program May Endanger
        ics and Statis-                Decennial Dress Rehearsal
        tics Administration
analyzes economic develop-                    In the fall of 2004, we began an inspection survey of the bureau’s progress in planning and
ments, formulates policy options,                acquiring a contractor to develop, implement, and manage the systems for the Field Data
and produces a major share of U.S.                 Collection Automation (FDCA) program. FDCA is an $800 million effort to automate
government economic and demographic                  ﬁeld data collection and provide logistics, training, and help desk support for 12 regional
statistics. The Chief Economist monitors               centers, more than 450 local census ofﬁces, and up to 500,000 ﬁeld staff who will be
and analyzes economic developments and                   charged with conducting the 2010 decennial census. Our survey sought to determine
directs studies that have a bearing on the                if the Census Bureau is positioned to complete the FDCA program in time for the
formulation of economic policy. ESA has two                2008 dress rehearsal and the 2010 decennial census.
principal agencies:
                                                             FDCA is meant to automate paper-
Bureau of the Census is the country’s pre-                   based ﬁeld data collection processes
eminent statistical collection and dissemination             to reduce overall 2010 census costs
agency. It publishes a wide variety of statistical           by as much as $900 million (com-
data about the nation’s people and economy,                  pared  to the cost of the paper-based
conducting approximately 200 annual surveys,                 processes   used in 2000) and improve
in addition to the decennial census of the                  data  quality  and operational efﬁcien-
U.S. population and the decennial census of                cy. The   key  technology component of
industry.                                                 FDCA     is a handheld  mobile computing
                                                         device equipped with Global Position-
Bureau of Economic Analysis prepares,                   ing System (GPS) capabilities that ﬁeld
develops, and interprets the national                 staff  will use to accurately locate housing
income and product accounts (summa-                  units,  update   address lists and maps, and
rized by the gross domestic product),              collect  questionnaire   data.
as well as aggregate measures of
international, regional, and                  Census had intended to develop FDCA internally
state economic activity.                   with  contractor support, but the bureau determined
                                       early in 2004 that it did not have the management or tech-
                                   nical resources to develop the ﬁeld data collection systems The Census Bureau plans to automate
                              for the dress rehearsal and 2010 census while simultaneously much of the data gathering function of the
                        supporting its 2004 and 2006 site tests. Instead, the bureau decided to decennial census with handheld computers.
             enlist an integration contractor for the entire program.                                  Source: U.S. Census Bureau.


A Slow Start

When we began our survey in fall 2004, FDCA lacked a project management plan and project organization. By the end of 2004, key
acquisition milestones had been missed. Then in January 2005, Census reorganized the entire FDCA program, establishing a project
management ofﬁce, appointing a new project manager, and developing an acquisition strategy to address the shortened schedule. The
bureau now appears to be on track to acquire the needed technology.




September 2005/Semiannual Report to Congress                                                                                              13
Economics and Statistics Administration



However, the initial slow pace in planning the acquisition and the     acquisition milestones since January 2005. Census disputed our
late decision to use an integration contractor reduced the amount      assessment that acquisition milestones had been missed in 2004
of time available to award the contract and develop FDCA. This         and that the address canvassing prototype extended the source
increased the risk that systems and services will not be ready by      selection schedule. (Ofﬁce of Systems Evaluation: OSE-17368)
April 2007 for address canvassing, which is the ﬁrst major ﬁeld
operation in the dress rehearsal. Our survey revealed Census           Latest Round of Census Contract
needed to develop a sound project management plan, formulate and
report objective measures of progress for bureau and Department
                                                                       Audits Questions More Than
oversight, and develop procedures and training for the technical       $10.7 Million
interchanges that will take place between Census and potential
technology vendors.                                                    We continued our audits of Census IT services contracts this
                                                                       semiannual period, reviewing task orders issued under another
                                                                       indeﬁnite delivery/indeﬁnite quantity contract awarded to a Vir-
Prototype Systems Being                                                ginia ﬁrm.
Developed During Source Selection
                                                                       The contract, issued in 1999, was to provide up to $150 million
The Census Bureau’s strategy to acquire the technology needed for      worth of information technology services to all Commerce operat-
FDCA was to have a limited number of vendors build prototype           ing units. Census awarded 21 task orders totaling $44.5 million
systems for address canvassing as part of the source selection         under the contract through April 2005.
process. FDCA ofﬁcials believe developing prototypes as part
of the contractor selection process provides a better chance of        We audited two of the 21 task orders to determine whether the ﬁrm
having a working system ready for address canvassing, better           had complied with contract terms and conditions and federal regu-
information for identifying the most qualiﬁed contractor, and          lations, and had billed Census for work performed in accordance
more accurate cost proposals. But this approach also extends the       with the speciﬁcations of the task order. One order was awarded
source selection schedule by about 4 months and requires more          in 2000 and the other in 2001. Both were amended several times,
technical communication between Census staff and prospective           extending the period of performance to 2005 and increasing com-
vendors. It further reduces the time to complete preparations for      bined funding for the two orders to approximately $32 million.
and begin dress rehearsal.
                                                                       In both audits, we found the ﬁrm had failed to comply with numer-
Our Recommendations                                                    ous contract and federal requirements, which caused us to question
                                                                       more than $10.7 million in direct labor and other reimbursable
We recommended the Census Bureau director take the following           costs. We recommended that Census disallow and seek recovery
actions:                                                               of the entire amount we questioned and take various other ac-
                                                                       tions to rectify the noncompliance that led to the unallowable
    1. Formulate a sound project management plan and track
                                                                       billings. (Denver Regional Ofﬁce of Audits: DEN-17445-5-0001
       program progress against the project management plan.
                                                                       and 0002)
    2. For future complex IT projects, consider contracting for
       the entire effort early in the capital asset planning process
       and assign responsibility for managing complex IT proj-
       ects to Census organizations with appropriate experience.
                                                                       Audits Unresolved for More
    3. Establish speciﬁc procedures for how Census staff will
       communicate with vendors during prototype develop-
                                                                       Than 6 Months
       ment and make sure any potential vendors are informed
       if system requirements change during the process of             ITS Services, Inc.
       developing the prototype.
                                                                       In the March 2005 Semiannual Report (page 19), we reported that
                                                                       three of the 32 task orders awarded under a Virginia IT services
Agency Response                                                        contract were audited to determine whether the costs billed by the
                                                                       ﬁrm were reasonable, allowable, and allocable under the contract
The Census Bureau agreed with our ﬁndings and recommendations
                                                                       terms and conditions and federal regulations. We found that the
and stated the bureau has taken actions to correct the deﬁciencies
                                                                       ﬁrm had failed to comply with numerous contract and federal
noted in our report. The bureau also indicated that additional
                                                                       requirements, and we questioned more than $8.5 million in direct
project documentation is being developed, including a project
                                                                       labor and reimbursable costs. We have suspended audit resolution
management plan, and notes that the bureau has met all of its
                                                                       pursuant to an agreement with Census.



14                                                                                U.S. Department of Commerce/Ofﬁce of Inspector General
                        INTERNATIONAL TRADE
                        ADMINISTRATION

                           Overseas Security Program Needs Improvements


T
        he Interna-                   As the trade promotion arm of the International Trade Administration, the U.S. Commercial Service
        tional Trade                      (CS) maintains more than 150 overseas ofﬁces. Thirty CS overseas ofﬁces are “noncollocated,”
        Administration is                     meaning they are not located in a building or compound with a State Department ofﬁce,
responsible for trade promotion and              embassy, or consulate. The State Department’s Diplomatic Security (DS) is primarily
policy issues associated with most non-             responsible for the security of these ofﬁces
agricultural goods and services. ITA works             and all Commerce personnel assigned to
with the Ofﬁce of the U.S. Trade Represen-               them, but Commerce is responsible for
tative to coordinate U.S. trade policy. ITA has            funding security upgrades. CS’ Ofﬁce
four principal units:                                        of International Operations (OIO)
                                                               staffs a four-person security team
Market Access and Compliance develops and im-                   to oversee security upgrades at
plements international economic policies of a bilateral,          noncollocated CS ofﬁces.
multilateral, or regional nature. Its main objectives are to
obtain market access for American ﬁrms and workers and            We conducted a review to follow up on our September 2000 assessment
to ensure full compliance by foreign nations with trade           of CS’ overseas security program at the agency’s request. This follow-
agreements signed with the United States.                         up also complements our recent evaluation of emergency preparedness
                                                                   and security at Commerce’s domestic facilities. (See page 37.) We
Manufacturing and Services undertakes industry trade               surveyed CS’ 30 noncollocated ofﬁces to determine, among other
analysis, shapes U.S. trade policy, participates in trade          things, whether any security vulnerabilities exist, upgrades are timely,
negotiations, organizes trade capacity building programs,          and management tools and administrative controls for the overseas
and evaluates the impact of domestic and international            security program and assessment process are adequate.
economic and regulatory policies on U.S. manufacturers
and service industries.                                            While we noted improvements since our 2000 review, we found that the
                                                                  tracking of security funds had not improved. Our request that security
Import Administration defends American industry                  funds be reconciled resulted in the identiﬁcation of $290,737 in secu-
against injurious and unfair trade practices by adminis-        rity funds that were deobligated and could be put to better use. We also
tering the antidumping and countervailing duty laws            found some security vulnerabilities at several ofﬁces and that upgrades
of the United States and enforcing other trade laws           are not always handled in a timely manner. CS needs to (1) implement a
and agreements negotiated to address such trade              project tracking system, (2) improve management of records, security funds,
practices.                                                 the security assessment process (and follow-up), and (3) better coordinate
                                                         its security activities with DS. We made 14 recommendations to address the
U.S. Commercial Service promotes the                  identiﬁed vulnerabilities and management issues, and reiterated that ITA should
export of U.S. products and helps small and         implement outstanding recommendations from our assessment conducted in 2000.
medium-sized businesses market their              (Ofﬁce of Inspections and Program Evaluations: IPE-17446).
goods and services abroad. It has 105
domestic ofﬁces and 157 over-
seas posts in serving more
than 80 countries.




September 2005/Semiannual Report to Congress                                                                                         15
                                 MINORITY BUSINESS
                                 DEVELOPMENT AGENCY

                              Audit Reveals MBDA 2004 Performance

    T                           Results Are Unreliable
            he
            Minority
            Business Devel-              Created in 1971, the Minority Business Development Agency (MBDA) is supposed to foster
    opment Agency was created              the establishment and growth of minority-owned businesses in America. MBDA’s primary
    to help minority-owned and               mission is to achieve entrepreneurial parity. MBDA deﬁnes entrepreneurial parity as a
    operated businesses achieve ef-           benchmark whereby minority business enterprises are contributing to the U.S. economy
    fective and equal participation in          at a rate comparable to the percentage of the U.S. minority population. MBDA programs
    the American free enterprise system,         foster the establishment and growth of minority-owned businesses in the U.S.
    and overcome the social and eco-
    nomic disadvantages that have limited
                                                  Performance Measure Showed
    their participation in the past. MBDA
    provides management and technical             Dramatic Increase
    assistance to minority ﬁrms upon
    request, primarily through a network          We audited MBDA’s ofﬁcial FY 2004 performance measures after concerns surfaced
    of business development centers. It          about   an unexplained dramatic increase in the number of clients the agency assisted.
    also promotes and coordinates the           Despite    a decrease in its FY 2004 appropriation from FY 2003, the number MBDA re-
    efforts of other federal agencies          ported   in the “Clients Assisted” category jumped from 7,228 in FY 2003 to 29,387 in FY
    in assisting or providing market          2004—a      300+  percent increase. Our audit assessed the process MBDA uses to measure,
    opportunities for minority              monitor,   report,  and verify its performance.
    businesses.
                                        Pattern of Overstated Performance

                                  The FY 2004 “Clients Assisted” number would have been enough of a curiosity in itself. But MBDA’s
                              performance reporting has been questionable before.

                   In 2003, OIG reviewed MBDA’s performance reporting in the Department’s FY 2002 Performance &
        Accountability Report (PAR), ﬁnding, among other things, that the agency had overstated its FY 2002 performance under one
measure, and did not verify some reported measures until after the FY 2002 PAR was issued. The 2003 review also found that OMB’s
2002 evaluation of MBDA’s submission for the Program Assessment Rating Tool (PART) relied on data from the FY 2001 PAR, which
was inaccurate for similar reasons. In response to these earlier reviews, MBDA ofﬁcials acknowledged the need to strengthen their
performance measure oversight and reporting.

In our most recent review, we looked at four of seven performance measures reported by MBDA in the FY 2004 PAR. Our audit re-
vealed that the agency inappropriately combined performance results for signiﬁcantly different programs, thus inﬂating the numbers
reported for those measures. We also found the reliability of results reported for Minority Business Operating Committees (MBOCs) to
be questionable because of unclear deﬁnitions, inconsistent guidance, inadequate veriﬁcation, and poorly supported claims of reported
dollar values of awards at four of ﬁve MBOCs visited.

Claiming questionable awards and lacking adequate support for reported claims misrepresents program results, a violation of the agency’s
own quality standards as well as the data consistency standards set by GAO.




September 2005/Semiannual Report to Congress                                                                                       17
Minority Business Development Agency



                                                                     ing the entire amount of the contract in the ﬁrst year might be
                                                                     defensible if MBDA (1) disclosed that its reported dollar value
                                                                     amount included such anticipated amounts, (2) tracked the actual
                                                                     outcomes of such contracts, and (3) made correcting adjustments
                                                                     for amounts claimed in the ﬁrst year but not actually received in
                                                                     later years. (Ofﬁce of Audits, Financial Statements and Account-
                                                                     ability Audits: FSD-17252)




                                                                     MBOCs in Florida and
                                                                     Wisconsin Working Well,
                                                                     Audits Find
Source: OIG                                                          The Minority Business Development Agency is the only federal
                                                                     agency created speciﬁcally to foster the establishment and growth
                                                                     of minority-owned businesses in America. The agency’s mission
Recommendations                                                      is to actively promote the growth and competitiveness of minority
                                                                     business enterprises of all sizes by coordinating and leveraging
We recommended the MBDA director take concrete steps to ensure
                                                                     public and private resources and encouraging strategic alliances
that the agency deﬁnes and reports its results clearly and accu-
                                                                     in support of its mission. Among other things, MBDA administers
rately, with unambiguous deﬁnitions of terms and distinct types
                                                                     the Minority Business Opportunity Committee (MBOC) program,
of information, and that all MBOCs document their performance
                                                                     which is designed to provide minority business enterprises with
claims. We also recommended that MBDA regional ofﬁces and
                                                                     enhanced access to markets, capital, and information.
headquarters implement effective veriﬁcation monitoring and
oversight to ensure the reliability of performance results.
                                                                     Florida. In February 2003, MBDA awarded a 3-year cooperative
                                                                     agreement to the National Minority Supplier Development Council
Agency Response                                                      of Florida to operate the Florida MBOC.

MBDA’s national director concurred with our recommendations          We audited the ﬁrst 2 years of the Florida MBOC cooperative
and described actions either already taken or planned to improve     agreement to determine whether the program was meeting perfor-
management controls for MBDA performance measures. MBDA              mance goals, claiming appropriate costs, and meeting the terms and
believes that MBOC-related concerns raised by the audit have         conditions of the award. The audit did not reveal any adverse ﬁnd-
been addressed with its new solicitation for the MBOC program.       ings. In fact, we determined that the Florida MBOC is performing
In its response, MBDA wrote that OIG assisted in the develop-        its duties and meeting its requirements well. The committee met
ment, review, and approval of the new MBOC program prior to          the required performance goals for both 2003 and 2004 calendar
competition. MBDA disagreed with the OIG position that in the        years, claimed only reasonable and allowable costs, and complied
case of multiple year awards, MBDA should not claim the full         with the terms and conditions of the original award. Accordingly,
contract value in the year the contract was signed.                  we did not recommend any corrective actions. (Atlanta Regional
                                                                     Ofﬁce of Audits: ATL-17363)
We are encouraged by actions that MBDA has taken and other ac-
tions that MBDA is planning. With regard to OIG’s involvement        Wisconsin. In February 2003, MBDA awarded a 3-year annually
in the revision of the MBOC program, while our auditors shared       funded cooperative agreement to the Wisconsin Business Resource
the problems they found with MBOC performance reporting with         Center to operate the Wisconsin MBOC.
MBDA senior management during the course of our review, we
did not otherwise assist in the development, review or approval      We audited the Wisconsin MBOC for the period beginning Febru-
of the new program.                                                  ary 2003 through December 2004 to determine whether the Wis-
                                                                     consin Business Resource Center achieved or had made sufﬁcient
We stand by our conclusion that the agency should not claim          progress toward accomplishing performance objectives; claimed
amounts for option years under a contract until those options are    costs that are reasonable, allowable, and allocable to the project;
exercised because it is not prudent to assume that all anticipated   and complied with the terms and conditions of the cooperative
option years of multiple year contracts will be exercised. Claim-    agreement.




18                                                                              U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                 Economics and Statistics Administration



Our audit showed that the Wisconsin Business Resource Center        ously undocumented costs. The audit revealed the center claimed
met its performance targets with one minor exception that the       costs that are reasonable, allowable, and allocable to the project;
agency corrected when we pointed it out. Our draft audit report     and it complied with the terms and conditions of the cooperative
had questioned $170,988 of in-kind costs and $7,900 of costs        agreement. We found the resource center to be a valuable center
without documentation of payment. In its response to the draft      of inﬂuence comprised of local, state, and county executives as
audit report, the center revised its in-kind cost claim to comply   well as private business leaders. (Denver Regional Ofﬁce of Au-
with applicable regulations and provided documentation of previ-    dits: DEN-17423)




September 2005/Semiannual Report to Congress                                                                                      19
                                 NATIONAL OCEANIC
                                 AND ATMOSPHERIC
                                 ADMINISTRATION

T
       he National                     Audit Finds NMFS Deviated from
       Oceanic and Atmo-                  Established Procedures
       spheric Administration
studies climate and global change,             In October 2004, 19 members of the U.S. House of Representatives wrote to the
ensures the protection of coastal oceans          inspectors general of Commerce and the Department of the Interior requesting
and the management of marine resources, pro-         a review into whether Interior’s Bureau of Reclamation undermined the en-
vides weather services, and manages worldwide           vironmental review process of NOAA’s National Marine Fisheries Service
environmental data. NOAA does this through the            (NMFS) for a water project in California’s Central Valley. Earlier in
following organizations:                                    the year, a controversy had erupted when NMFS issued a biological
                                                                 opinion under Section 7 of the Endangered Species Act (ESA) stating
National Weather Service reports the weather of the               that California’s long-term Operations, Criteria, and Plan (OCAP)
United States and provides weather forecasts and warnings          for the Central Valley Project and the State Water Project to man-
to the general public.                                              age the water supply would not jeopardize endangered species.
                                                                     The biological opinion was an element of a complex process
National Ocean Service issues nautical charts, performs geo-         to evaluate what impacts changes in the Central Valley Project
detic surveys, conducts research, and develops policies on ocean      would have on populations of endangered ﬁsh, such as salmon
mining and energy.                                                    and steelhead trout.

National Marine Fisheries Service conducts a program of                 In response to the congressional request, we conducted an audit
management, research, and services related to the protection and        to identify what review process NMFS used to issue the OCAP
rational use of living marine resources.                               opinion. We also sought to determine whether NMFS followed
                                                                       its policies, procedures, and normal practices for consultations
National Environmental Satellite, Data, and Information                when it issued the OCAP biological opinion. Our purpose was
Service observes the environment by operating a national              not to evaluate the science involved, but rather the integrity of the
satellite system.                                                    process. Our ﬁndings are detailed below:

Ofﬁce of Oceanic and Atmospheric Research conducts
research related to the oceans and inland waters, the              NMFS Deviated from Its Norm
lower and upper atmosphere, space environment, and
the Earth.                                                   Our assessment of the process leading to the biological opinion revealed
                                                           the NMFS southwest regional ofﬁce did not follow its normal procedures
Ofﬁce of Marine and Aviation Operations                  in handling the OCAP consultation and failed to comply with two signiﬁcant
operates NOAA’s ships and aircraft and                 controls in its review process. Rather than suspend the review until the Bureau
provides NOAA programs with trained                 of Reclamation    provided all the information needed to begin a consultation under
technical and management person-                 ESA,  NMFS     went   forward. In fact, biologists who worked on the project said the
nel from the nation’s seventh                Bureau  of Reclamation     was changing the project description even after the opinion had
uniformed service.                      been  issued, and that working    on the OCAP opinion had been frustrating because it was like
                                   “trying to hit a moving target.”

                        Of the 10 cases OIG reviewed, audit staff found no other cases in which the southwest regional ofﬁce of NMFS
        initiated a formal consultation without sufﬁcient information. In this instance, it began its analysis 4 months before the Bureau
of Reclamation provided the information normally needed to begin such a case. This raised a question as to whether the ﬁnal analysis
was really based on the best scientiﬁc information available.




September 2005/Semiannual Report to Congress                                                                                         21
National Oceanic and Atmospheric Administration



                                                                                sought to determine whether this was true. Was there an earlier
                                                                                “jeopardy” draft that had been issued to the Bureau of Reclamation
                                                                                and subsequently improperly changed?

                                                                                NMFS staff who worked on the opinion initially told us that Bu-
                                                                                reau of Reclamation regional staff received a partial draft with a
                                                                                transmittal letter stating a “jeopardy” conclusion in early August
                                                                                2004. But we found no evidence that the Bureau of Reclamation
                                                                                was ever actually provided such documents. The administrative
                                                                                record only documented delivery of a “no jeopardy” draft to the
                                                                                Bureau of Reclamation in late September 2004.

                                                                                Recommendations and Agency
                                                                                Response

                                                                                These types of biological opinions are clearly environmentally
                                                                                important and politically sensitive. NOAA must have a meaningful
                                                                                and open process based on sound science and maximum integrity
                                                                                to yield such pivotal opinions. With that and the results of our
                                                                                review in mind, we recommended that NOAA objectively evalu-
                                                                                ate whether the southwest regional ofﬁce’s questionable handling
                                                                                of the OCAP opinion undermined its scientiﬁc integrity. We also
                                                                                recommended the bureau review existing policies and directives
                                                                                for Section 7 consultations, clarify the legal review process, is-
                                                                                sue these policies and procedures to staff, and submit them for
                                                                                inclusion in NOAA Delegations of Authority, which are part of
                                                                                the agency’s directives.
California’s Central Valley Project was begun in 1935 by the federal
government to irrigate the state’s central valley and protect it from ﬂoods.    NOAA ﬁrst responded to our report with the assertion that the
As California’s largest water project, it provides water to irrigate 3.7 mil-
                                                                                southwest regional ofﬁce had followed the process required under
lion acres, and its power plants can produce up to 1.4 million kilowatts of
electricity.                                                                    1995 guidelines and asked us to reconsider our recommendations.
                                                                                After consulting with our ofﬁce, the bureau promised to evaluate
Source: http://esrpweb.csustan.edu/gis/maps/cvp_swp_sjv.jpg.
                                                                                its policies and directives within 6 months, and we altered our
                                                                                recommendations to reﬂect that commitment. We believe if NOAA
The southwest regional ofﬁce also did not follow the policies and
                                                                                fails to complete its evaluation of the delegations, policies, and
procedures in place that are intended to ensure that biological
                                                                                directives for biological opinions within 6 months, then all such
opinions are sound. For example, the designated regional Section
                                                                                delegations should be revoked.
7 coordinator did not clear the OCAP opinion, a key management
control normally required prior to issuing opinions. The coordi-
                                                                                NOAA also said it does not subject its biological opinions to peer
nator told us she did not clear the opinion because the assistant
                                                                                review, but in light of OIG’s recommendation to evaluate the sci-
regional administrator sent it out while she was away from the
                                                                                entiﬁc integrity of the NMFS opinion in the California case, it is
ofﬁce conducting training. She also said that given the opportu-
                                                                                working on an agreement with an outside organization to review
nity, she would not have cleared the opinion because she believed
                                                                                the science underlying the OCAP opinion.
its conclusion did not match the scientiﬁc analysis. In addition,
the Ofﬁce of General Counsel never cleared the opinion, and the
                                                                                In NOAA’s action plan for addressing the ﬁndings and recommen-
regional general counsel could not explain why.
                                                                                dations in our ﬁnal audit report, agency ofﬁcials stated that they
                                                                                have completed their review of existing delegations, policies, and
No Evidence that “Jeopardy” Draft                                               directives for Section 7 consultations and an interim delegation
Was Provided to Interior                                                        was issued August 15, 2005. Agency ofﬁcials stated that a single
                                                                                comprehensive national policy for delegation of authority for Sec-
Because allegations that an earlier draft had been altered sparked              tion 7 consultations will be approved and issued by December 15,
the interest of legislators and led, ultimately, to OIG’s review, we            2005. The action plan also stated that by October 30, 2005, NMFS




22                                                                                         U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                             National Oceanic and Atmospheric Administration



would have completed development of a Section 7 training plan
for employees, and by November 30, 2005, the agency would have
implemented an oversight strategy for Section 7 consultations.             Facts About Improper Payments
                                                                           •    Federal agencies completed risk assessments of
Although we concurred with these planned actions, we did not                    all programs and dollars spent and determined that
concur with NOAA’s plan for objectively evaluating whether                      more than 60% of government outlays for ﬁscal year
the regional ofﬁce’s questionable handling of the OCAP opinion                  2004, or $1.4 trillion out of $2.3 trillion, is at risk for a
impaired the opinion’s scientiﬁc integrity. The organization se-                signiﬁcant level of improper payments.
lected by NOAA to conduct the evaluation did not appear to be an           •    Of the $1.4 trillion in outlays at risk for improper pay-
objective party. We therefore requested that NOAA select another                ments, only $1.2 trillion of this amount could be mea-
organization—one that is objective—to evaluate the opinion.                     sured for improper payments. The largest program
(Seattle Regional Ofﬁce of Audits: STL-17242)                                   without an improper payment rate is Medicaid, which
                                                                                makes annual outlays of more than $175 billion.
                                                                           •    Of the $1.2 trillion in outlays for which improper
                                                                                payments were measured, agencies found a total
Minor Internal Control Issues                                                   of $45.1 billion in improper payments in ﬁscal year
                                                                                2004.
Noted in Improper Payment
                                                                           •    Approximately 92% of these improper payments are
Review                                                                          overpayments with the remainder being underpay-
                                                                                ments.
Each year the federal government loses approximately $20 billion
                                                                           Source: http://reform.house.gov/GMFA/News/DocumentSingle.
through improper payments2—payments made in duplicate; for                 aspx?DocumentID=30678.
incorrect amounts or vendors, unsupported claims, or services not
rendered; or as a result of fraud. Congress passed two laws in recent
years in an effort to ameliorate this problem. The National Defense
Authorization Act for Fiscal Year 2002 requires agencies entering       Internal Controls Were Effective
into contracts valued at more than $500 million per ﬁscal year to
identify and recover erroneous payments made to contractors. The        We conﬁrmed that NOAA’s internal controls were effective, ﬁnd-
Improper Payments Information Act requires that, beginning in           ing only 68 improper transactions in our entire review sample of
FY 2004, agency heads conduct annual reviews of all programs            1,680 disbursements. But circumstances related to the 68 errone-
and activities to identify those that are susceptible to signiﬁcant     ous payments suggested opportunities for further strengthening
erroneous payments,3 and for those programs and activities that         controls. For example, nearly all of the improper transactions were
are, further analyze and report on any such payments.                   the result of processing errors that NOAA staff failed to detect
                                                                        during prepayment audits—reviews conducted by ﬁnancial staff
In response to these legislative initiatives, Commerce asked its        to ensure payments are properly authorized and meet processing
bureaus in FY 2003 to assess their risks for making erroneous pay-      requirements. In a few other instances, the erroneous payments
ments and evaluate the effectiveness of their internal controls for     resulted from inadequate oversight by the contracting ofﬁcer’s
preventing them. The resulting assessment from NOAA concluded           representative managing the contract. NOAA agreed to review the
that the agency had appropriate internal controls in place to keep      circumstances surrounding the payments and strengthen internal
such payments to a minimum, but did identify the need for better        controls as appropriate.
oversight of the payments process.
                                                                        We also found that NOAA does not systematically retain all pay-
                                                                        ment-related records, despite federal and Department regulations
Our audit looked at NOAA’s FY 2003 payments made against
                                                                        for doing so. Speciﬁcally, it discards a key payment certiﬁcation
contracts and purchase orders to determine whether the number
                                                                        document (the PM101A report) that it does not consider to be an
or dollar amounts of improper payments were signiﬁcant and to
                                                                        ofﬁcial record. But this document veriﬁes completion of the pre-
assess whether, as NOAA believed, its internal controls success-
                                                                        payment audit and contains other information that could protect
fully prevented, detected, and corrected such payments.
                                                                        the government’s interests in the event of litigation. The document
                                                                        therefore is subject to records retention requirements. NOAA said
                                                                        that the certiﬁed copies of the payment document are retained in
                                                                        compliance with federal and Department requirements.
2
    U.S. Government Accountability Ofﬁce, GAO-03-750T, May 13, 2003.
                                                                        We concurred with NOAA’s responses to both of the opportuni-
3
 The threshold is at least 2.5 percent of annual program payments and   ties identiﬁed. (Ofﬁce of Audits, Business and Science Division:
$10 million.                                                            BSD-16186)



September 2005/Semiannual Report to Congress                                                                                                23
National Oceanic and Atmospheric Administration




Paciﬁc Coastal Salmon
Recovery Fund
In 2004, the Ofﬁce of Inspector General began a series of audits
on projects operating under the Paciﬁc Coastal Salmon Recovery
Fund. This multimillion dollar fund provides federal grants to
Alaska, California, Idaho, Oregon, and Washington and their
resident Native American tribes to conserve populations of wild
salmon. The program supports habitat restoration, research,
recovery planning, and enhancement projects for endangered
and threatened salmon species. The program was established by
Congress and is administered by the National Oceanic and Atmo-
spheric Administration.

In our September 2004 semiannual report (pages 31-32) we de-
tailed our interim audits of projects conducted by an Oregon state
board and two Washington tribes. In our March 2005 report (page        Lake Quinault is a source of salmon brood stock for one tribe’s salmon
27), we detailed the results of audits of three additional tribes.     recovery program.
During this semiannual period, we completed interim audits of          Source: OIG.
three more tribes.

All of these tribes are operating programs through subagreements       The third tribe invoiced costs totaling $839,243, and we ques-
with a Washington state Native American commission that received       tioned $382,060 of that amount. The bulk of the questioned
a 5-year, $27.3 million recovery fund award to ﬁnance salmon           costs—$366,772—reﬂected unsupported transfers of costs from
projects. The commission allotted an equal share of the grant          its general ﬁsheries grant to the salmon recovery projects. The
(roughly $1.3 million) to each of its 20 member tribes.                tribe also had more than $9,000 in questionable payroll costs,
                                                                       $3,759 in unallowable travel expenses, and $2,455 in associated
In our 3 most recent audits, we looked at costs invoiced to the        indirect costs.
commission during the period April 2000 through September 2003.
Here is a brief synopsis of what we found and recommended:             We recommended that the director of NOAA grants management
                                                                       (1) disallow and recover questioned costs totaling $1,839,713,
                                                                       from the three tribes, and (2) direct the commission to take spe-
Audits Recommend Recovery                                              ciﬁc action to remedy the internal control and other weaknesses
of More Than $1.8 Million from                                         we identiﬁed in each tribe’s administration of its projects. (Seattle
Washington Tribes                                                      Regional Ofﬁce of Audits: STL-16657-5-0005, -0007 and -0008)

Our audit of one tribe conducting projects to recover several
salmon species looked at a total of $853,659 in costs billed to the
commission. Of that amount, we questioned and sought recovery of
$695,868 in unsupported labor, fringe beneﬁts, indirect costs, con-
tract expenses, unapproved project expenditures, and overcharges.
We also found the tribe’s ﬁnancial management, procurement, and
property management systems did not meet federal standards.

A second tribe submitted costs totaling $935,000. This tribe is
assessing habitat and stock in a tributary of its traditional ﬁshing
area, and conducting a spawning survey and stream assessment
of a smolt trapping program. Our audit questioned $761,785 in
unsupported labor and related fringe beneﬁts, undocumented ex-
penses, indirect costs, and subcontract costs not allocable to the
program. We also found the tribe had inadequate time distribution
procedures and documentation.                                          Salmon eggs from brood stock at a tribal hatchery.
                                                                       Source: OIG.




24                                                                                    U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                             National Oceanic and Atmospheric Administration




Inspection Finds Few
Problems at River Forecast
Center
The National Weather Service has 13 river forecast centers (RFCs)
across the country that monitor water levels in river basins and
issue hydrometeorological forecasts and guidance to weather fore-
cast ofﬁces (WFOs) and water management organizations. RFCs
forecast when rivers are expected to reach ﬂood stage, timing of
ﬂood crests, and when a ﬂooded river is expected to recede. This
service is vital, especially considering NWS’ own estimates that
90 percent of all natural disasters in the United States involve
some degree of ﬂooding.

We conducted an inspection of NWS’ Northeast River Forecast              The Northeast River Forecast Center team works well together, but the
                                                                         building needs maintenance.
Center in Taunton, Massachusetts, from December 2004 to Feb-
ruary 2005. The center is one of the smallest in the NWS system          Source: OIG.
and is located in the same building as the Boston weather forecast
ofﬁce.                                                                   is responsible for maintenance and repairs, but at the time of our
                                                                         review, 46 work orders had been submitted since April 2004 and
We found the northeast center to be a well-functioning and gen-          only 4 had been completed. In addition, metallic ﬁlaments called
erally well-managed facility. The ofﬁce works well as a team to          “zinc whiskers” that break free from aging ﬂoor tiles and lodge
issue the best possible river forecasts. We also found that staff from   in circuits may have caused some serious computer equipment
NWS’ Eastern Region headquarters conduct semiannual internal             failures in the past 5 years.
reviews and regularly communicate with and visit the northeast
center. However, we did ﬁnd some areas that could beneﬁt from            We recommended that the assistant administrator for weather
program and administrative improvements.                                 services, in conjunction with the director of NOAA’s Facility and
                                                                         Acquisition Management Division, (1) ensure that repairs and
                                                                         maintenance at the Taunton facility are completed in a timely man-
Some Program Improvements                                                ner and (2) instruct the Eastern Region Headquarters to document
Needed                                                                   the northeast center’s handling of the zinc whisker problem and
                                                                         make that information available to other NWS facilities.
The forecast center is not taking full advantage of new Geographic
Information Systems (GIS) software, although NWS is exploring
the possibility of transitioning to new GIS products. We recom-
                                                                         Agency Response
mended the assistant administrator for weather services develop
                                                                         NOAA concurred with all our recommendations and said an
a timeline to implement GIS capability.
                                                                         integrated work team is being formed to identify NWS-wide
                                                                         information needs and systems architecture to support GIS. The
We also found there are no well-deﬁned procedures for verifying
                                                                         team will use an Operations and Service Improvement Process to
river forecasts that will provide enough detail to make river ba-
                                                                         prioritize requirements and identify solutions. NOAA also is de-
sin model and forecaster skill improvements possible. Work has
                                                                         veloping an outreach plan for FY 2006, which includes partnered
begun to implement such a system. We recommended that NWS
                                                                         RFC-weather forecast ofﬁce outreach activities for the purpose of
develop, document, and implement a timeline and action plan for
                                                                         educating NWS users, and NOAA’s Hydrologic Services Program
completing the comprehensive river forecast veriﬁcation system
                                                                         is currently developing a timeline and action plan to implement the
as soon as practicable.
                                                                         National River Forecast Veriﬁcation System. In addition, NOAA’s
                                                                         Real Property Division and NWS Eastern Region ofﬁcials have
Facility Needs Maintenance and                                           met with a representative of the owner and discussions to resolve
Repair Work                                                              facility issues have begun. NOAA also agreed to prepare a docu-
                                                                         ment regarding the center’s experience and solution for the metallic
The northeast center and the Boston WFO are located in an ag-            whisker problem and make it available to other NWS facilities.
ing leased building that needs work. The lease states the owner          (Ofﬁce of Inspections and Program Evaluations: IPE-17259)




September 2005/Semiannual Report to Congress                                                                                              25
National Oceanic and Atmospheric Administration




NEXRAD Audit Follow-up                                               equipment. Speciﬁcally, the contract modiﬁcation was executed
                                                                     without sufﬁcient evaluation, serious consideration of any other
Shows NOAA Has Completed                                             alternatives, adequate negotiation, and proper review and oversight
Action Plan                                                          by NOAA’s Acquisition and Grants Ofﬁce. Our recommendations
                                                                     addressed such areas as program ofﬁce management, contracting
During this semiannual period, we followed up on the status of       ofﬁcer representatives’ technical management responsibilities,
NOAA’s actions to address recommendations from our 2003 re-          acquisition ofﬁce responsibilities, and professional training.
view of a modiﬁcation to a contract for acquiring power sources
to support the NEXRAD system. That report, Acquisition of            In November 2003, NOAA submitted a plan outlining seven ac-
NEXRAD Transition Power Source Marred by Management,                 tions for implementing our recommendations by the end of calen-
Technical, and Contractual Problems (OSE-15676), concluded           dar year 2004. These included, among other things, developing an
that poor handling of the contract change increased costs of the     acquisitions handbook and procurement policy directive; ensuring
procurement by $4.5 million and that NWS paid for defective          acquisition staff are adequately trained to do their jobs; improving
                                                                     coordination with its federal partners (Defense and Transporta-
                                                                     tion) in operating NEXRAD; and establishing a board to review
                                                                     proposed solicitations. Our follow-up found that NOAA has taken
                                                                     these actions, but needs to improve the acquisition handbook to
                                                                     include provisions regarding:

                                                                        1. Alternatives—how all reasonable alternatives are analyzed,
                                                                           evaluated, and documented;

                                                                        2. Technology reviews—what is necessary in establishing the
                                                                           acquisition plan; how trade-offs are evaluated; how the
                                                                           technical evaluation is to be conducted and documented;
                                                                           and how the technical performance, schedule, and cost risk
                                                                           are presented; and

                                                                        3. Contract changes—how post-award changes will be
                                                                           handled, related costs considered, and proposed decisions,
                                                                           ﬁndings, and recommendations be documented.

                                                                     (Ofﬁce of Audits: BSD-17613)



A hilltop NEXRAD tower in San Diego stands out in front of a cloud
bank.
Source: www.wrh.noaa.gov/Sandiego.




26                                                                              U.S. Department of Commerce/Ofﬁce of Inspector General
                           TECHNOLOGY
                           ADMINISTRATION

                              NIST Procurement Practices Have Improved but


T
       he Technol-               Improvements Are Still Needed
       ogy Administra-
       tion serves the needs of                In keeping with our focus on acquisition management, we concluded a performance audit
technology-based industry, advocates               of NIST procurement policies and procedures—assessing their effectiveness and com-
federal actions and policies to speed the             pliance with federal laws and regulations, and determining whether the agency’s
transfer of technology from the laboratory to            acquisition workforce is trained to handle the huge and often complex business
the marketplace, and removes barriers for com-             of purchasing goods and services from outside vendors.
mercializing new technologies. It includes three
major organizations:                                           In FY 2004, NIST spent some $276 million—more than a third of its annual
                                                                 budgetary resources—on such purchases. Congress has enacted a series
Ofﬁce of Technology Policy works in partnership with               of laws over the past 30 years to both simplify the government procure-
the private sector to develop and advocate national poli-           ment process, maximize competition, and protect the government’s
cies and initiatives that use technology to build America’s          interest in these transactions (see box). The latest reform came in
economic strength, promote the creation of high-wage jobs,            2003, when the president issued an open competition initiative to help
and bring about improvements in our quality of life.                   small businesses compete more effectively for government contracts.
                                                                       While bringing greater efﬁciency to the acquisition process, these
National Institute of Standards and Technology promotes                initiatives have reduced management oversight, given contracting
U.S. economic growth by working to develop and apply tech-             ofﬁcers greater latitude in choosing the method of procurement
nology, measurements, and standards. NIST manages four                 and in justifying their decision, and created new opportunities for
programs: the Advanced Technology Program, the Manufac-                mismanagement     and abuse.
turing Extension Partnership program, the Baldridge Nation-
al Quality Program, and NIST Research Laboratories.                  In our review at NIST, we focused on contract actions whose total
                                                                     dollar value exceeded $100,000, and looked for instances in which
National Technical Information Service is a self-sup-               single acquisitions might have been split into two or more transactions
porting agency that promotes the nation’s economic                 to circumvent spending limits. We reviewed a sample of contract ac-
growth and job creation by providing access to infor-            tions from ﬁscal years 2002 and 2004.
mation that stimulates innovation and discovery.
NTIS accomplishes this mission through informa-            OUR FINDINGS
tion collection and dissemination to the public
and through information and production                NIST’s acquisition policies and procedures generally comply with federal regula-
services to federal agencies.                      tions and Department guidance, but the agency does not always apply them properly.
                                                 The net effect is that procurement activities at times do not meet the intention of federal
                                              and Commerce requirements. In particular, we noted these problems:

                                      Greater emphasis on opportunities for full and open competition is needed. By federal
                                law and executive order, agencies must aggressively promote competition and limit noncompetitive
                        solicitations. NIST’s internal guidance requires bids from at least three vendors for orders costing more than
             $2,500 and made under General Services Administration (GSA) federal supply schedules. Open market purchases costing
more than $100,000 must be awarded using full and open competitive procedures. More than half of the contracts we reviewed were
awarded noncompetitively with NIST possibly missing out on savings and other beneﬁts that competition promotes. We learned that
program staff members are not always open to competition, preferring instead to work with contractors they know or have dealt with
before. Although NIST has improved its use of competition from FY 2002 to FY 2004, continuing efforts are needed. The agency has
committed to taking actions to reinforce the proper use of competitive and noncompetitive procedures.




September 2005/Semiannual Report to Congress                                                                                          27
Technology Administration



                                                                        reviewed that were awarded under negotiated or simpliﬁed ac-
 Federal Procurement Regulations and                                    quisition procedures—with a total value of $3.1 million—were
 Legislation                                                            awarded without adequate market research.

 •    Federal Acquisition Regulation established uniform poli-          Commerce requires legal review of proposed contract awards that
      cies and procedures that cover all aspects of procure-            may leave the government vulnerable, including certain noncom-
      ment.
                                                                        petitive procurements and large-dollar competitive procurements.
 •    Competition in Contracting Act of 1984 stipulates seven           We found four instances in which required legal review under
      circumstances under which noncompetitive contracting              these criteria was not performed. Although the Department does
      is permitted.                                                     not require review of federal supply schedule contracts or of orders
 •    Federal Acquisition Streamlining Act of 1994 and the              made against indeﬁnite delivery/indeﬁnite quantity contracts, these
      Clinger-Cohen Act of 1996 promoted performance-                   can pose monetary and performance risks to the government and
      based contracts.                                                  we believe should be subject to legal review. Using these criteria,
                                                                        we identiﬁed 33 orders totaling $22.8 million that should have
                                                                        been submitted for legal review.
NIST requires that when contracts are awarded noncompetitively,
the reasons must be documented on form CD-492, “Justiﬁcation            The Department’s Ofﬁce of General Counsel agreed that these
for Other than Full and Open Competition.” We found that of 53          orders pose a potential risk to the government and that they should
noncompetitive contracts reviewed, there were 26 instances where        be subjected to legal review.
the lack of competition was either inadequately justiﬁed or there
was inadequate documentation. NIST has stated that it will promote      NIST does not consider past performance. Agencies must
competition and ensure that when noncompetitive procurements            consider a contractor’s past performance in evaluating offers and
are necessary, the reasons are adequately documented.                   awarding new contracts, yet sufﬁcient consideration was lacking in
                                                                        30 of the awards in our sample (23 from FY 2002 and 7 from FY
We also found that the agency historically has contracted non-          2004). The value of these contracts totaled $22.9 million. Although
competitively on a sole-source basis for scientiﬁc and technical        the Federal Acquisition Regulation requires consideration of past
expertise with leading scientiﬁc experts including former NIST          performance when making awards, neither the Department nor
employees. NIST has taken steps to attempt competition by issu-         NIST offers guidance as to how past performance is to be used.
ing a basic ordering agreement with a consulting ﬁrm tasked to
provide the requested resources. However, since the government          Government estimates are not properly documented. The
provides the contractor with the name of a “government-referred”        Federal Acquisition Regulation requires agencies to prepare their
individual capable of accomplishing the task, we questioned the         own independent estimates of the cost of a planned acquisition,
adequacy of competition. NIST has reported it is currently taking       but neither the Department nor NIST offers guidance for how they
steps to issue a new contract or contracts that will create competi-    should be developed and documented. The contracts in our sample
tion when contracting for technical or scientiﬁc expertise.             had government estimates, but only the estimates for construc-
                                                                        tion-type contracts were adequately documented. In 14 cases, the
NIST does not properly plan for acquisitions. According to              government estimate was the same as the vendor’s quoted price.
NIST’s Acquisition Management Division director, the program            In 11 of these, the award amount exactly matched the estimate
staff who request goods and services are typically scientists who       and the contractor’s quote.
are not attentive to the administrative details of procurement or the
need to plan ahead. We believe that inadequate planning explains        NIST is not doing enough to stop unauthorized procurements.
the lack of full competition for many of the 53 noncompetitive          An unauthorized procurement is an agreement that is not binding
contracts in our sample. Advance planning would have allowed            because the government representative who made it lacked the
NIST the time to conduct a thorough search of all potential contrac-    authority to enter into the agreement on the government’s behalf.
tors. To resolve this problem, the agency now requires managers to      In FY 2002, NIST processed 46 unauthorized procurement actions
prepare annual spending plans that identify upcoming purchasing         totaling $412,065, and in FY 2004, it processed 28 such actions
and allow for proper planning.                                          totaling $1,071,143. Unauthorized purchases are serious matters
                                                                        and the practice should be discontinued.
Market research and legal review are lacking. For procurement
contracts valued at more than $100,000, federal regulations require     Training for acquisition staff is not tracked and documented.
agencies to conduct market research to determine whether needed         The Commerce Acquisition Career Management Program imple-
goods are available commercially or if the use of noncompetitive        ments training requirements for procurement staff, as stipulated by
procedures is warranted. Eleven of the 39 FY 2002 contracts we          the Ofﬁce of Federal Procurement Policy. As part of the program,




28                                                                                 U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                               Technology Administration



agency points of contact must report on courses completed by          sign safer structures in the
employees. At the time of our review, NIST’s point of contact kept    aftermath. Total estimated
a log of completed training as reported by individual employees       direct costs of the 3-year
                                                                                                       NIST’s Advanced
but NIST did not maintain supporting documentation to verify the      award were $2 million, to        Technology Program
training had actually been completed. Additionally, the agency had    be fully paid by the federal     As part of its efforts to spur
no written procedures for managing the training program. Since the    government. NIST set the         technological development,
completion of the audit, the agency has reported that it has issued   maximum funding limit for        NIST administers the Ad-
procedures that outlined the NIST training program.                   direct costs at $690,000 for     vanced Technology Program
                                                                      the ﬁrst year of the project     (ATP) to provide ﬁnancial as-
                                                                                                       sistance through cooperative
OIG Recommendations                                                   (October 2003 through
                                                                                                       agreements, with the goal
                                                                      September 2004). The ﬁrm
                                                                                                       of transferring cutting-edge
We recommended that NIST take a series of steps to improve            received reimbursement           technology to industrial uses.
its procurement activities, among them that the agency subject        for total claimed costs of       Between 1990 and Septem-
acquisitions to full and open competition whenever possible;          $607,027.                        ber 2004, ATP awarded
improve acquisition planning; fully justify noncompetitive pro-                                        $2.3 billion in funding to
curements on form CD-492; revise market research guidelines;          Our interim ﬁnancial audit       companies to develop prom-
update guidelines for legal review of contract actions; develop       of these first-year costs        ising, high-risk technologies.
                                                                      questioned $1,506 in fringe      Industry has matched this
procedures for conducting past performance reviews and prepar-
                                                                      beneﬁts paid to an employ-       funding with $2.3 billion in
ing independent government estimates; establish a tracking and                                         cost-sharing.
monitoring system for acquisition staff training; eliminate unau-     ee for time not allocable to
thorized procurement actions; and that the agency director ensure     the ATP project. We recom-
program managers actively support initiatives to improve agency       mended that NIST seek full
procurement activities.                                               reimbursement of this amount. We found the ﬁrm was otherwise in
                                                                      compliance with all federal regulations and ATP requirements for
                                                                      the award. (Denver Regional Ofﬁce of Audits: DEN-17247)
NIST’s Response
                                                                      Massachusetts. In September 2003, NIST awarded a 2-year ATP
NIST agreed that its leaders need to ensure that program managers     cooperative agreement to a Massachusetts ﬁrm to develop real-
actively support initiatives to improve procurement activities, and   time video technology that will broadcast 3-D holographic images.
stated that the agency is committed to ensuring that good, sound      The government’s total estimated direct costs are $1,666,468. No
procurement practices are implemented. NIST commented that the        matching funds from the company are required.
competition results included in the report would be more balanced
had we included transactions between $25,000 and $100,000 with        For the ﬁrst year, federal reimbursement was capped at $755,399.
our sampled transactions exceeding $100,000. The agency dis-          The ﬁrm sought and received reimbursement of $401,800. We
agreed with the recommendation to develop legal review criteria       questioned $2,855 of that amount in non-ATP payroll and fringe
for Federal Supply Schedule orders and orders placed on indeﬁnite     beneﬁts, but noted that during the same time frame, the ﬁrm had not
delivery or indeﬁnite quantity contracts. NIST also disagreed with    claimed $1,778 of project-related expenses. We credited the recipi-
our recommendations to establish internal guidance for develop-       ent for this amount, which reduced questioned costs to $1,077.
ing independent government estimates and for documenting past
performance reviews because it considered this to be the responsi-    Our audit also revealed that the ﬁrm had violated federal procure-
bility of the Department to offer Department-wide policy. (Ofﬁce      ment regulations and ATP award terms by executing contracts that
of Audits, Business and Science Division: BSD-16656)                  did not contain required provisions and by failing to establish
                                                                      written procurement procedures. Further, the company’s written
                                                                      accounting procedures fell far short of complying with federal
                                                                      ﬁnancial management regulations, and it failed to consistently
Minimal Costs Questioned                                              implement the few policies that were in place. For example, most
in ATP Awards Audits                                                  of the timesheets we looked at had not been signed by both the
                                                                      employee and the supervisor, as required.
New York. A New York City ﬁrm received an Advanced Tech-
nology Program (ATP) award to develop affordable software for         We recommended that NIST (1) disallow and fully recover the
generating precise 3-D computer models of buildings and major         $1,077 in questioned costs, and (2) direct the ﬁrm to establish and
structures. The software is intended to help emergency responders     enforce the required written procurement and accounting proce-
locate people more quickly in a disaster and to help architects de-   dures. (Denver Regional Ofﬁce of Audits: DEN-16980)




September 2005/Semiannual Report to Congress                                                                                       29
Technology Administration




The ﬁnancial assistance awards process of the Department of Commerce.
Source: OIG




No Compliance Issues Noted                                              leverage public and private resources to make a comprehensive
                                                                        range of services and assistance available to small manufacturers.
in Audit of North Carolina                                              Centers receive one-third of their funding from the federal govern-
Project                                                                 ment, one-third from state and local organizations, and one-third
                                                                        from fees for services. The program began in 1989 with centers in
We audited the costs claimed by a ﬁrm that received a 3-year ATP        three states and today it comprises a national network of afﬁliated
award to develop software that accurately predicts the efﬁcacy          manufacturing extension centers and ﬁeld ofﬁces serving small
and effects of drugs in development. The goal of the project is to      manufacturers in all 50 states and Puerto Rico. In the past 16 years,
greatly reduce the time and cost of bringing new drugs to market        the program has provided services to more than 184,000 clients.
(currently 12 years and $800 million, respectively) by identifying
potential successes and failures during drug design rather than         The Ofﬁce of Inspector General has issued 90 reports of audits
in clinical trial. Total estimated direct costs of the project are      of NIST-funded centers and program operations since MEP’s
$1.9 million, with federal funding for the ﬁrst year capped at          inception. MEP centers often have a difﬁcult time meeting the
$654,000. The agreement requires no matching funds from the             nonfederal matching share requirement, which can be as large as
company, nor does it provide reimbursement for indirect costs. For      two-thirds of the total annual cost of the center. As a result, centers
the ﬁrst 12 months of the project, the recipient claimed $558,482       sometimes made claims for matching share contributions that we
in direct costs and received $556,988 in federal reimbursement.         found questionable. NIST’s unclear direction to centers on what
                                                                        constitutes acceptable matching share contributions sometimes
Our interim audit disclosed no instances of noncompliance with          exacerbated the problem.
ATP award terms and conditions, and found the ﬁrm had an ad-
equate accounting system for the purposes of the award. However,
                                                                        In April 2005, NIST issued operating plan guidelines for the pro-
its ﬁnancial management system did not meet minimum federal
                                                                        gram, in part to address the continuing OIG concern regarding
requirements because the recipient had not developed written pro-
                                                                        matching share claims under the program. The new guidelines
curement procedures. The ﬁrm subsequently produced evidence
                                                                        took effect July 1, 2005, and were formulated with input from the
that such procedures are in place, and we considered the matter
                                                                        Department’s Ofﬁce of General Counsel and OIG. The guidelines
resolved. (Denver Regional Ofﬁce of Audits: DEN-17248)
                                                                        more clearly deﬁne both acceptable and unacceptable types of non-
                                                                        federal matching share and require many matching share arrange-
OIG Assistance Strengthens                                              ments to be reviewed and approved in advance by the NIST grants
Grant Program                                                           ofﬁcer. This guidance should signiﬁcantly reduce or eliminate
                                                                        the types of matching share claims that OIG has rejected during
The NIST Hollings Manufacturing Extension Partnership (MEP)             numerous past audits. We plan to monitor the implementation and
program is a model for federal-state partnerships designed to           effectiveness of the new guidelines through future audits.




30                                                                                 U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                               Technology Administration




AUDITS UNRESOLVED FOR                                                we advised NIST that we concurred with its decision to disallow
                                                                     $715,097, but did not concur with reinstatement of the remaining
MORE THAN 6 MONTHS                                                   $7,462,509. OIG is currently reviewing a revised audit resolution
                                                                     proposal that NIST submitted in June 2005.
Massachusetts MEP
                                                                     Computer Aided Surgery Inc.,
We are continuing to work with NIST ofﬁcials toward resolution of
an audit we reported on in our September 2004 Semiannual Report
                                                                     New York
(page 37). In that report, we detailed an audit of an MEP coopera-
                                                                     An OIG audit of this NIST cooperative agreement (see September
tive agreement as being unresolved for more than 6 months. Our
                                                                     2004 issue, page 35, and March 2005 issue, page 33—ATL-16095)
audit had recommended that NIST disallow questioned costs of
                                                                     questioned costs totaling $547,426 in inappropriately charged rent,
$8,177,606, recover the federal share of $1,599,349, and require
                                                                     utilities, and certain salary, fringe beneﬁt, and other expenses, be-
the recipient to implement improvements to its ﬁnancial reporting
                                                                     cause these costs were unallowable, in excess of budgetary limits,
system. In its audit resolution proposal, NIST disallowed $715,097
                                                                     or incorrectly categorized. We have postponed NIST’s submission
and reinstated $7,462,509 in costs questioned in the audit report.
                                                                     of an audit resolution proposal.
In July 2004, after detailed analyses of NIST’s audit resolution
proposal and other documents provided by NIST and the recipient,




September 2005/Semiannual Report to Congress                                                                                        31
                                    UNITED STATES PATENT
                                    AND TRADEMARK OFFICE

                            FISMA Review Finds Inadequate Enforcement of
                               Contractor Information Security Requirements
                                              To meet our FY 2005 reporting requirements under the Federal Information Security Manage-
                                                ment Act (FISMA), we evaluated USPTO’s efforts to implement IT security requirements for



     T
                                                  contractor employees and systems. USPTO relies heavily on contractors to accomplish its
             he United                              mission and enable electronic processing of patents and trademarks. Because patent and
             States Patent                            trademark application information is extremely conﬁdential, the systems processing it
             and Trademark                              must be highly secure.
     Ofﬁce administers the nation’s
     patent and trademark laws.                              The Department of Commerce issued two contract clauses containing IT security
     Patents are granted and trademarks                       requirements in 2003, in response to OIG ﬁndings reported in a review of Depart-
     registered under a system intended                       ment-wide information security.4 USPTO adopted these clauses to protect informa-
     to provide incentives to invent,                         tion and IT systems from risks posed by contractors who connect to its network or
     invest in research, commercialize                        process or store sensitive agency data. The clauses require contractors to comply
     new technology, and draw atten-                          with USPTO’s IT security handbook, get their IT systems certiﬁed and accredited,5
     tion to inventions that would                           and have their employees undergo appropriate background screening. The agency
     otherwise go unnoticed. USPTO                           advised its contracting ofﬁcers to begin using these clauses in new and certain existing
     also collects, assembles,                              service contracts beginning in late 2003.
     publishes, and disseminates
     technological information                           We evaluated 10 IT service contracts currently in force at USPTO to determine whether
     disclosed in patents.                             and how effectively the agency has implemented the clauses. The maximum estimated
                                                      value of our sample over the life of the contracts was $1.7 billion.

                                               We found that USPTO has incorporated the clauses, but noted several weaknesses in their
                                             implementation:

                            Contract risk levels are low and employee background screenings inadequate. The level of risk to the
                       government posed by a contract determines how closely a contractor is screened. USPTO designated all contracts
              in our sample as low risk—meaning contract employees undergo minimal background investigations. But guidance in the
Commerce Acquisition Manual (CAM) suggests that some of these contracts should be designated as high or moderate risk, in which
case contractor employees should receive more rigorous background screenings.

The low-risk designation assigned to our sample contracts is not an anomaly. The agency gives low-risk designations to nearly all
contracts and employee positions. Even its IT security handbook favors low-risk designations and does not even mention what would
require high or moderate designations.




4
  U. S. Department of Commerce Ofﬁce of Inspector General, May 2002. Information Security Requirements Need to be Included in the Department’s Information
Technology Service Contracts. Report No. OSE-14788.

5
  Certiﬁcation is the comprehensive assessment of the management, operational, and technical controls of an information system to determine if the controls are imple-
mented correctly, operating as intended, and producing the desired outcome. Accreditation is management’s formal authorization to allow a system to operate and ac-
ceptance of remaining system vulnerabilities.




September 2005/Semiannual Report to Congress                                                                                                                   33
United States Patent and Trademark Ofﬁce




    USPTO Risk-Level Designation Compared to CAM Criteria
    Description of Contract Work                          USPTO Risk Level             CAM Risk Level               Relevant CAM Criteria

    System Design and Integration (SDI) con-                                                                    Designing and operating a computer
    tracts–System design and development, al-                                                                   system that includes ADP hardware,
    lowing access to operational systems and                                                                    software, and/or data communica-
    underlying IT infrastructure. (2 contracts in                                                               tions, regardless of the sensitivity of
                                                                Low                          High
    our sample)                                                                                                 the data.

                                                                                                                Access to a computer system that
                                                                                                                could result in grave damage or in
                                                                                                                personal gain.


    Patent Data Capture contract–Manag-                                                      High               Access to a computer system dur-
    ing patent applications, allowing access                                                                    ing the operation or maintenance
    to pre-publication patent applications,                                                                     process that could result in grave
                                                                Low                                             damage or in personal gain.
    conﬁdentiality required by 35 USC 122.
    (1 contract in our sample)
                                                                                             Moderate           Work involving access to sensitive
                                                                                                                information.


    System Engineering and Technical As-                                                                        Planning and implementing a
    sistance contract (SETA)–Developing and                                                                     computer security program
    implementing USPTO IT security pro-
    gram, allowing access to security plans,                    Low                          High
    and proprietary/conﬁdential information.
    (1 contract in our sample)




Contractor systems are not certiﬁed or accredited. Contractors                         or access sensitive agency information. The plan should provide
have 14 days from the time they connect to a USPTO network to                          cost estimates and a method for improving communication
submit C&A packages. None of those in our sample had done so,                          about and compliance with C&A requirements.
though the deadline had long passed.6 Consequently, none of their
systems has undergone certiﬁcation testing or received accredita-                  2. Certify and accredit contractor systems in accordance with
tion. So while most systems in our sample are either connected                        FISMA, make the appropriate USPTO program officials
to the USPTO network or contain sensitive agency data, USPTO                          responsible for accrediting these systems, and test security
has no assurance that they are adequately secure. We believe this                     controls at a level that corresponds to associated risks.
noncompliance reﬂects USPTO’s failure to convey the importance,
magnitude, and cost of meeting the C&A requirement; enforce                        3. Incorporate IT security clauses into all new task orders under
the deadline and consequences for missing it; and coordinate the                      government-wide service contracts, and develop a plan and
roles of agency personnel responsible for implementing contrac-                       schedule for reviewing existing contract risk designations and
tor IT security.                                                                      modifying them as appropriate.

OIG Recommendations                                                                4. Review and modify the IT security handbook guidance that
                                                                                      establishes roles and responsibilities for implementing IT
In summary, we recommended that USPTO                                                 security in acquisitions.

1. Develop a plan and schedule for certifying and accrediting con-
   tractor systems that connect to the USPTO network, or process


6
  After we completed our ﬁeldwork for this report, we met with ofﬁcials from the Department’s Ofﬁce of the Chief Information Ofﬁcer and Ofﬁce of Acquisition Man-
agement to raise concerns about the feasibility of the 14-day deadline. They told us that the Department is considering ways to improve implementation of the C&A
requirement and are aware that 14 days to complete a certiﬁcation and accreditation package is unreasonable.




34                                                                                              U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                   United States Patent and Trademark Ofﬁce



Agency Response

USPTO generally concurred with our ﬁndings and agreed to imple-
ment all of our recommendations. (Ofﬁce of Systems Evaluation:
OSE-17455)




Inspector General Urges
Department Ofﬁcials to
Address Personnel Problems
at USPTO
In 2004, allegations that the United States Patent and Trademark       The public search room at USPTO’s new building in Alexandria, Virginia.
Ofﬁce had used improper hiring practices to install a new human
                                                                       Source: USPTO.
resources director prompted OIG to audit the bureau’s human
resource processes. For many years prior to 2004, we had also
received repeated complaints that USPTO management had al-             The memorandum listed several actions USPTO should take
lowed unfair personnel practices and activities that undermined        immediately to solve its seemingly intractable HR problems,
the integrity of the bureau’s human resources operation. Our June      including:
2004 report, USPTO Needs Strong Ofﬁce of Human Resources
Management Capable of Addressing Current and Future Chal-                 1. Establish and follow appropriate HR policies and procedures
lenges (BTD-16432), detailed troubling ﬁndings, such as a ﬂawed              to guide decision-making.
hiring process and USPTO’s failure to adhere to merit system
principles. In that report, we advised the bureau to promptly create      2. Train OHR staff in the Standards of Ethical Conduct for
an effective HR ofﬁce that implements management controls to                 Employees of the Executive Branch.
ensure it adheres to merit system principles and establishes sound
HR policies and procedures.                                               3. Stabilize OHR and ensure people detailed to jobs have the
                                                                             appropriate skills and experience to perform those jobs.
USPTO ofﬁcials agreed with our ﬁndings and promised to make
reforms, but this year we again found the bureau has problems          The bureau has taken some actions to address the problems OIG
with compliance with merit system principles and hiring practices.     found in the past, including providing ethics training to its human
Since USPTO has authority to hire hundreds of examiners, it is         resources department staff, splitting the post of chief ﬁnancial
critical that USPTO addresses the problems in its personnel prac-      ofﬁcer/chief administrative ofﬁcer into two positions, hiring
tices. In May 2005, the Inspector General sent a memorandum to         experienced human resources professionals to be OHR director
then-Acting Deputy Secretary of Commerce David A. Sampson              and deputy director, and creating a plan to address long-standing
summarizing the problems we had earlier identiﬁed along with           HR problems. (Memorandum from Inspector General Johnnie
some new issues that had come to our attention and asking the          E. Frazier to Acting Deputy Secretary of Commerce David A.
Department to work with USPTO senior management to properly            Sampson, dated May 6, 2005, “Ongoing Issues in USPTO’s Ofﬁce
address them.                                                          of Human Resources”)




September 2005/Semiannual Report to Congress                                                                                             35
                            DEPARTMENT-WIDE
                            MANAGEMENT

                          Improvements in Commerce Emergency

T
      he United             Preparedness Have Been Made but Additional
      States Depart-           Department-wide Guidance and Oversight
      ment of Commerce
promotes job creation and       Are Needed
improved living standards for all
Americans by creating infrastructure           Three years ago, in the wake of the September 11 terrorist attacks, OIG evaluated the
that fosters economic growth, technologi-        state of the Department’s emergency preparedness. We noted vulnerabilities in the
cal competitiveness, and sustainable growth.       safety and security of many Commerce facilities. (See March 2002 Semiannual
The Department has three strategic goals:           Report to Congress, page 77.) During this past semiannual period, we followed
                                                     up on this review to identify and evaluate enhancements the Department has
Goal 1: Provide the information and the frame-        introduced in the intervening years, and determine the overall status of emer-
work to enable the economy to operate efﬁciently       gency preparedness. A separate review also was completed on security of ITA’s
and equitably.                                         overseas ofﬁces (see page 15).

Goal 2: Provide the infrastructure innovation to        In the 3 years since our initial evaluation, Commerce has made great strides in
enhance American competitiveness.                       improving its emergency preparedness. For example, it has installed public ad-
                                                        dress and voice over Internet protocol (VoIP) notiﬁcation systems, implemented
Goal 3: Observe and manage the Earth’s envi-           shelter-in-place   programs and
ronment to promote sustainable growth.                 enhanced  evacuation   procedures,
                                                      purchased escape hoods and other         OSY’s Responsibilities:
The Department has also established a Man-           emergency equipment, and tightened
                                                                                               • Develop security policies and proce-
agement Integration Goal that is equally            access to and security of its facilities
                                                                                                  dures.
important to all bureaus: Strengthen              around the country. To better manage
                                                 Department-wide security initiatives,         •  Safeguard classiﬁed and sensitive
management at all levels.                                                                         documents and information.
                                               Commerce consolidated responsibility
                                            for overseeing and coordinating emergency          • Analyze threats and assess security
                                         preparedness under its Ofﬁce of Security (OSY),          risks.
                                     while leaving the bureaus responsible for imple-          • Coordinate emergency actions and
                                  menting speciﬁc measures and programs to safeguard              preparedness efforts.
                            their own personnel and facilities.                                • Conduct security operations, educa-
                                                                                               tion, awareness, and training.
            While the Department has greatly improved its emergency response capabili-      • Oversee compliance with security
ties and issued much guidance on continuity of operations plans, it has issued relatively     policies and procedures.
little Commerce-wide guidance on implementing effective preparedness programs. There        • Coordinate, establish, and maintain
also has been inadequate oversight of bureau compliance with established policies and         a Department occupant emergency
procedures. This void has undercut the effectiveness of the Department’s efforts, and         program.
some bureaus and facilities may be ill prepared to handle an emergency. OSY’s risk as-      • Help establish and maintain a
sessments of Commerce sites—while thorough and more frequent than in the past—of-             Department-wide emergency action
fer inconsistent recommendations, and OSY does not always follow up with bureaus              program.
to see whether recommended actions are being implemented. Key security upgrades to          • Conduct administrative investiga-
protect certain critical assets remain unimplemented, and OSY has acknowledged that           tions.
some proposed, more costly upgrades still are pending. The quality of security guard        • Specify and enforce the security ele-
forces—though improved since our 2002 review—still varies among locations, with               ments of the Ofﬁce of Administrative
some much better prepared than others to handle the speciﬁc risks and potential threats       Services’ management policy.
to Commerce personnel and property.




September 2005/Semiannual Report to Congress                                                                                      37
Department-wide Management



We recommended 13 speciﬁc actions to eliminate the weaknesses
we identiﬁed in the Department’s emergency preparedness policies       Preaward Screening Results
and oversight, risk assessment process, and guard services, and
thereby improve its response capabilities and the overall safety                                                   Award
and security of Commerce staff and assets nationwide.                  Results                         Number              Amount

The Department’s Chief Financial Ofﬁcer and Assistant Secretary        Awards delayed to
for Administration fully concurred with most of our recommenda-        resolve concerns                    13          $15,652,706
tions, and noted actions Commerce is taking to address them. He
acknowledged that improvements are needed in communication,            Special award
oversight, and guidance related to the Department’s security and       conditions established              25          $20,362,666
emergency preparedness programs. Though disagreeing with some
of the weaknesses we identiﬁed with risk assessments, security
guard forces, and other areas, the CFO described departmental
initiatives under way that respond to a number of these concerns.
(Ofﬁce of Inspections and Program Evaluations: IPE 17198)
                                                                     NONFEDERAL AUDIT
                                                                     ACTIVITIES
                                                                     In addition to undergoing OIG-performed audits, certain recipients
                                                                     of Commerce ﬁnancial assistance are periodically examined by
PREAWARD FINANCIAL                                                   state and local government auditors and by independent pub-
ASSISTANCE SCREENING                                                 lic accountants. OMB Circular A-133, Audits of States, Local
                                                                     Governments, and Non-Proﬁt Organizations, sets forth the audit
As part of our ongoing emphasis on prevention of fraud, waste,       requirements for most of these audits. For-proﬁt organizations
and abuse, we continue to work with the Ofﬁce of Acquisition         that receive Advanced Technology Program funds from NIST are
Management, NOAA and NIST grant ofﬁces, and EDA program              audited in accordance with Government Auditing Standards and
ofﬁces to screen the Department’s proposed grants and cooperative    NIST Program-Speciﬁc Audit Guidelines for ATP Cooperative
agreements before they are awarded. Our screening serves two         Agreements, issued by the Department.
functions: it provides information on whether the applicant has
unresolved audit ﬁndings and recommendations on earlier awards,      We examined 157 audit reports during this semiannual period to
and it identiﬁes any negative ﬁnancial or investigative history on   determine whether they contained any audit ﬁndings related to
individuals or organizations connected with a proposed award.        Department programs. For 88 of these reports the Department acts
                                                                     as oversight agency and monitors the audited entity’s compliance
On January 1, 2004, we implemented new policies and procedures       with OMB Circular A-133 or NIST’s program-speciﬁc reporting
for our preaward screening process. OIG and the Department de-       requirements. The other 69 reports are from entities for which other
termined that there are several categories of recipients for whom    federal agencies have oversight responsibility. We identiﬁed 17
the costs and administrative burden of the screening process may     reports with ﬁndings related to the Department of Commerce.
well outweigh the government’s risk of ﬁnancial loss. Our new
policies exempt from review, recipients who (1) receive awards in
amounts of $100,000 or less; (2) have received ﬁnancial assistance                                  OMB             ATP
from the Department for 3 or more consecutive years without any                                     A-133         Program-
adverse program or audit ﬁndings; or (3) are units of a state or       Report Category              Audits      Speciﬁc Audits   Total
local government.
                                                                       Pending
During this period we screened 273 proposed awards. For 38             (April 1, 2005)                10             98          108
of the awards, we found major deﬁciencies that could affect the
ability of the prospective recipients to maintain proper control       Received                       83             52          135
over federal funds. On the basis of the information we provided,
the Department delayed 13 awards and established special award         Examined                       83             74          157
conditions for 25 awards. (Ofﬁce of Audits)
                                                                       Pending
                                                                       (September 30, 2005)           10             76            86




38                                                                               U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                         Department-wide Management



The following table shows a breakdown, by bureau, of the nearly   We identiﬁed a total of $2,694,768 in questioned costs and $31,233
$548 million in Commerce funds audited.                           in funds to be put to better use. In most reports the subject programs
                                                                  were not considered major programs; thus the audits involved lim-
                                                                  ited transaction and compliance testing against laws, regulations,
        Bureau                                           Funds    and grant terms and conditions. The 17 reports with Commerce
                                                                  ﬁndings are listed in Appendix B-1. (Atlanta and Denver Regional
        EDA                                    $ 22,053,804       Ofﬁces of Audits)

        NIST*                                   116,797,267

        NOAA                                      12,608,159

        NTIA                                         308,986

        Multiagency                             393,584,076

        Agency not identiﬁed                       2,786,532

        Total                                  $548,138,824

* Includes $116,692,322 in ATP program-speciﬁc audits.




September 2005/Semiannual Report to Congress                                                                                      39
                                 OFFICE OF
                                 INSPECTOR GENERAL
                             Commerce Inspector General Joins Other IGs in

  T
          he mission           Hearing on Hurricane Katrina Spending
          of the Ofﬁce of
          Inspector General is             With billions of federal dollars ﬂow-
  to promote economy, efﬁciency,              ing into the Gulf Coast region, the
  and effectiveness and detect and              U.S. House of Representatives’
  prevent waste, fraud, abuse, and                Subcommittee on Oversight and
  mismanagement in the programs and                Investigations, Committee on
  operations of the U.S. Department of               Energy and Commerce, called
  Commerce. Through its audits, inspec-              six inspectors general and rep-
  tions, performance evaluations, and investi-        resentatives from the Govern-
  gations, OIG proposes innovative ideas and          ment Accountability Ofﬁce to
  constructive solutions that lead to positive        describe plans for monitoring    On September 28, Johnnie E. Frazier (left), inspector
  changes for the Department. By provid-              their agencies’ use of these     general of the U.S. Department of Commerce, and six
                                                                                       other inspectors general gave the U.S. House of Repre-
  ing timely, useful, and reliable information        funds. Inspector General         sentatives’ Subcommittee on Oversight and Investiga-
  and advice to departmental ofﬁcials, the            Johnnie E. Frazier of Com-       tions, Committee on Energy and Commerce, informa-
  administration, and Congress, OIG’s work            merce joined IGs from Energy,    tion about their plans for monitoring their agencies’ use
  helps improve Commerce management                  Defense, Homeland Security,       of funds designated for the Gulf Coast region.
  and operations as well as its delivery of         HHS, and EPA in testifying         Source: OIG.
  services to the public                           before the subcommittee.

                                              At the time of the September 28 hearing, Congress had appropriated an unprecedented $63
                                            billion for Katrina relief, and Commerce bureaus are actively supporting the relief effort.
                                         Under the President’s National Response Plan, the Department is charged with supporting
                                      the Department of Homeland Security in helping the nation prepare for, respond to, and recover
                                   from major natural disasters. As a result, the focus and level of funding Commerce dedicated to
                               post-Katrina activities could be substantial.

                   Mr. Frazier noted that the large infusion of federal resources accompanied by spending ﬂexibilities that agencies may
adopt inevitably increases the potential for waste, fraud, and abuse. For example, Commerce has raised spending limits for certain NOAA
purchase cardholders to $15,000 and the ceiling for simpliﬁed acquisitions from $100,000 to $250,000 for Katrina-related buying.

“Huge infusions of dollars, coupled with more ﬂexible rules, create an environment ripe for possible waste, fraud, and abuse,” Mr.
Frazier stated. But he added that inspectors general are well-positioned to monitor the appropriate use of such funding and ﬂexibilities
because in identifying the top challenges facing their agencies every year, IGs are well aware of their operational and programmatic
weaknesses and know where to look for problems.

“Across all agencies and departments, the areas of procurement, ﬁnancial and grants management, and information security have been
consistently cited as vulnerable to waste, fraud, and abuse,” Mr. Frazier stated. “Not surprisingly, these are some of the key areas and
means by which government agencies will deliver and manage their relief efforts.”

Mr. Frazier noted that his ofﬁce began working closely with Department ofﬁcials almost immediately after Katrina to identify funds
being spent on related activities. He reported that the Commerce Chief Financial Ofﬁcer has established internal controls to identify
and monitor Katrina spending. OIG will evaluate the effectiveness of those controls, assess whether funded projected are targeting the
most crucial needs and meeting their objectives, review contract administration, and pay close attention to ﬁnancial assistance projects
that are permitted to operate under nontraditional funding terms and conditions.




September 2005/Semiannual Report to Congress                                                                                              41
Ofﬁce of Inspector General



Lessons Learned from                                                       and criminal and administra-
Hurricane Andrew                                                           tive misuse of government
                                                                           computer resources. The
Mr. Frazier spoke of his ofﬁce’s experience monitoring the Depart-         investigations highlighted
ment’s recovery efforts after Hurricane Andrew in the 1990s and            below are representative
of lessons learned that can inform Commerce’s involvement with             of our accomplishments
Katrina. The scope of that disaster and related federal support was        during this period in these
much smaller—roughly $1 billion was shared by various federal              areas of critical concern.
agencies, $80 million of which went to Commerce’s Economic                 Our investigative results are
Development Administration to fund long-term economic recov-               grouped by subject matter
ery and growth projects. OIG reviews of these projects revealed            into three distinct areas:
that the successful ones rebuilt or replaced critical buildings and        external and program fraud,
infrastructure, and were located within a 20-mile path of the hur-         internal misconduct, and
ricane. The unsuccessful ones were in areas less impacted by the           computer crime.
hurricane and focused on developing tourism and new business
ventures. Had EDA applied the following guidelines in every case,          CONTRACTOR,
unsuccessful projects could have been identiﬁed and their funding          GRANTEE, AND OTHER EXTERNAL
transferred to better prospects:                                           FRAUD AND CORRUPTION
   • Target communities directly impacted.                                 Commerce disburses millions of dollars each year in ﬁnancial assis-
                                                                           tance awards and government contracts. With large sums of money
   • Focus immediate rebuilding efforts on vital infrastructure            being entrusted to thousands of different recipients across the na-
     and commercial concerns.                                              tion, it is unfortunately not uncommon for unscrupulous individuals
                                                                           to attempt to exploit bureaucratic vulnerabilities for professional or
   • Enforce standard monitoring procedures.                               personal gain. Addressing fraud by contractors and grantees (as well
                                                                           as other forms of external fraud and corruption) is a high priority
   • Provide consistent, ongoing oversight both on-site and from           for OIG, and the Ofﬁce of Investigations has markedly increased
     agency headquarters.                                                  its attention to these issues over the past several years.
   • Quickly rehabilitate or terminate projects that are failing
                                                                           Economic Development Commission
     to meet milestone goals and transfer funds to other disaster
                                                                           Ofﬁcials Convicted on Program Fraud and
     recovery purposes.
                                                                           False Statement Charges
“It is critical that agencies not overlook the need to give close atten-
                                                                           In our September 2004 Semiannual Report (page 19), we reported
tion to shortcomings in project oversight in light of the monumental
                                                                           the indictment of two former directors of a regional rural economic
rebuilding effort required post-Hurricane Katrina,” Mr. Frazier
                                                                           development commission for conspiracy, program fraud, and false
stated. “If ofﬁcials recognize the symptoms of problem projects
                                                                           statements in connection with their administration of federal grant
early on, they can promptly act to ﬁx them, where possible, or
                                                                           funds, including funds awarded by EDA to operate a revolving
terminate the award and redeploy the remaining funds.”
                                                                           loan fund. A joint OIG/FBI investigation disclosed that the de-
                                                                           fendants had used nearly half a million dollars in federal funds
                                                                           to make unauthorized loans and payments to beneﬁt themselves
                                                                           and companies they controlled. On May 17, 2005, both defendants
OFFICE OF INVESTIGATIONS                                                   entered guilty pleas on single counts of the indictment in U.S.
                                                                           District Court for the Western District of Missouri. The former
During this semiannual period, we achieved a signiﬁcant measure            executive director of the commission pleaded guilty to federal
of success and substantially enhanced the impact of our work               program fraud, which could subject him to a sentence of up to 10
by focusing our limited resources in several areas that currently          years in prison without parole, plus a ﬁne of up to $250,000. The
make up the greatest part of our caseload: fraud and corruption            former assistant director pleaded guilty to using false documents
involving contractors, grantees, and other private parties dealing         and was sentenced in September 2005 to 3 years’ probation and a
with the Department; employee fraud, corruption, and misconduct;           $5,000 ﬁne. (Denver Resident Ofﬁce)




42                                                                                    U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                                 Ofﬁce of Inspector General



Census Contractor Ordered to Make                                       Local Government Ofﬁcials Debarred
Restitution to the Government for Credit
Card Fraud                                                              In April 2005, the former manager and former accountant of a mu-
                                                                        nicipal economic development organization in Massachusetts were
Under the terms of a pretrial diversion agreement with the State’s      debarred from receiving federal contracts or ﬁnancial assistance
Attorney’s Ofﬁce in Kane County, Illinois, on June 15, 2005, a          awards for periods of 10 and 3 years, respectively. As noted in our
Census vendor was ordered to pay $23,225 in restitution and per-        March 2005 Semiannual Report (page 16), the debarred individuals
form 500 hours of community service over a 36-month probation-          are two of four local ofﬁcials convicted of conspiracy and fraud
ary period for fraudulently billing a credit card account issued to     in connection with the administration of grant funds awarded to
the bureau. As previously reported (see March 2005 Semiannual           the organization by the Economic Development Administration
Report, page 19), an OIG investigation found that in addition to        and other federal agencies. The other two ofﬁcials were previously
legitimate charges for services rendered to Census by his company,      debarred. (Alexandria Resident Ofﬁce)
the vendor had billed a government purchase card for more than
20 fraudulent charges over an 8-month period in 2004. By admit-         EMPLOYEE FRAUD, CORRUPTION,
ting his culpability and complying with all terms and conditions
of the pretrial agreement, the defendant will be eligible to have the
                                                                        AND MISCONDUCT
charges dismissed at the completion of his probationary period.
                                                                        Investigation of criminal activities and misconduct by Commerce
(Alexandria Resident Ofﬁce)
                                                                        employees has long been the province of OIG, and it remains a
                                                                        staple of the Ofﬁce of Investigation’s work. During this semiannual
Joint Investigation Reveals Extortion                                   period, OI successfully prosecuted one employee for bribery and
Scheme in Connection with Federally                                     resolved allegations of unethical conduct by two senior ofﬁcials.
Funded Projects                                                         We also pursued multiple cases of time and attendance fraud and
                                                                        theft of government property.
On September 30, 2005, a construction company subcontracting
on an EDA-funded public works project and the company’s owner
                                                                        USPTO Employee Convicted on Bribery
were charged with bribery in connection with an extortion scheme
                                                                        Charges
executed by a Philadelphia city ofﬁcial. A joint investigation in-
volving the FBI, IRS, and OIGs of the departments of Commerce,
                                                                        On June 23, 2005, a former supervisory engineering draftsman
Labor, and Transportation disclosed that the ofﬁcial was accepting
                                                                        at USPTO was indicted for bribery in violation of 18 USC § 201
bribes from private companies in exchange for issuing minority
                                                                        after an OIG investigation disclosed that she had solicited payment
business certiﬁcates for use in obtaining construction contracts
                                                                        from patent applicants in exchange for drafting work to be per-
on city projects, including several projects funded by the federal
                                                                        formed by employees under her supervision. In September 2005,
government. The city ofﬁcial pleaded guilty to extortion in U.S.
                                                                        the defendant entered a guilty plea to all charges in U.S. District
District Court for the Eastern District of Pennsylvania and was
                                                                        Court for the Eastern District of Virginia. Sentencing has not yet
sentenced in May 2005 to 36 months’ probation and a $600 ﬁne.
                                                                        been scheduled. (Alexandria Virginia Resident Ofﬁce)
The charges ﬁled against the construction company and its owner
could result in ﬁnes of up to $500,000 each, and a 13-year maxi-
mum term of imprisonment for the owner. (Alexandria Resident            Unethical Hiring Practices in USPTO’s
Ofﬁce)                                                                  Ofﬁce of Human Resources Result in
                                                                        Removal of Senior Employee
Assignment of Fictitious Census Contract
                                                                        A supervisory patent examiner was removed from her position in
Results in Conspiracy Conviction
                                                                        August 2005 as the result of an OIG investigation into allegations
                                                                        of misconduct and mismanagement in USPTO’s Ofﬁce of Human
A Louisiana businessman was convicted of conspiracy to com-
                                                                        Resources. The inquiry was prompted by a series of complaints
mit bank fraud as the result of a joint OIG/FBI investigation. As
                                                                        alleging improper hiring practices, improper use of employee
reported in our March 2005 Semiannual Report (page 19), the
                                                                        details, and violations of merit hiring principles in the ofﬁce. The
defendant had pledged his company’s interest in the proceeds of
                                                                        complaints had earlier resulted in an OIG audit of a questionable
an $18.5 million contract with the Census Bureau as collateral for
                                                                        OHR recruitment that found USPTO did not have sufﬁcient HR
a $6 million loan from a New Orleans bank. We established that
                                                                        policies and procedures in place to guide its personnel function.
documents he submitted to support the assignment were forged
                                                                        (See our September 2004 Semiannual Report, page 40.) Our
and no contract with Census actually existed. On April 21, 2005,
                                                                        multidisciplinary follow-up effort included both investigation of
the defendant entered a guilty plea in U.S. District Court for the
                                                                        speciﬁc instances of alleged misconduct and an analysis of OHR
Eastern District of Louisiana. Sentencing was scheduled for Oc-
                                                                        operations from a functional and management perspective.
tober 2005. (Alexandria Resident Ofﬁce)



September 2005/Semiannual Report to Congress                                                                                          43
Ofﬁce of Inspector General



With respect to the allegations of misconduct, we found that         Speciﬁcally, timekeepers are no longer allowed to process their
the patent examiner had violated employee ethical standards of       own timesheets, and transmission ﬁle listings are now required for
conduct by actively participating in the hiring of a close fam-      all time and attendance information transmitted to the National
ily member as a human resources specialist working under her         Finance Center. In addition, each supervisor has access to an
supervision. She was personally involved in the hiring process       overtime/compensatory time report for his or her ofﬁce on a pay
from its inception and took various actions to inﬂuence the result   period basis, and the region’s deputy director reviews individual
up through and including the selection phase. Because of the         overtime data at least once a month. (Washington Field Ofﬁce)
nepotism involved in the hiring, the relative was notiﬁed that her
appointment would be cancelled.                                      Theft Conviction in Time and Attendance
                                                                     Fraud Case
Our inquiry also conﬁrmed a wide variety of problems, includ-
ing improper document handling, inappropriate hiring practices,      An OIG investigation disclosed that over a span of four pay periods
misuse of details to place unqualiﬁed employees in positions, and    in late 2004, an ofﬁce automation assistant at the National Ocean
violations of the agency’s performance recognition procedures.       Service embezzled more than $5,000 by using her position as alter-
Of greatest concern, we identiﬁed an organizational culture that     nate timekeeper to falsify her time in the T&A database, claiming
overlooked violations of required merit system procedures and        236 hours of overtime she had not worked. In September 2005,
controls and exhibited widespread ignorance or disregard of basic    she pleaded guilty to theft in U.S. District Court for the District of
ethical requirements.                                                Maryland and was sentenced to 12 months’ probation, a $500 ﬁne,
                                                                     and ordered to pay $5,151 in restitution. (Atlanta Field Ofﬁce)
In response to the recommendations generated by our inquiry,
OHR is in the process of implementing signiﬁcant changes to its      Crackdown on Time and Attendance
policies, procedures, and ofﬁce structure. In addition, USPTO        Fraud at USPTO
management requested that the Ofﬁce of General Counsel provide
ethics training to all OHR staff members. (Silver Spring Resident    Between April and September 2005, OIG uncovered evidence
Ofﬁce; Ofﬁce of Audits; Ofﬁce of Counsel)                            that ﬁve USPTO employees, including a patent examiner and
                                                                     several legal instruments examiners, were engaged in time and
Procurement Ofﬁcial Counseled for                                    attendance fraud on a recurring basis, falsely claiming hundreds
Misconduct                                                           of hours of work time to obtain a total of more than $25,000 in
                                                                     unearned salary payments. Two of the employees immediately
An OIG investigation found that a senior procurement ofﬁcial who     resigned their positions when confronted with evidence of their
was involved in a personal relationship with an executive employed   misconduct. Three employees were arrested on state theft charges.
by a DOC contractor failed to notify all necessary parties of the    On September 22, 2005, one of the three was convicted of felony
relationship as part of the recusal process, thereby creating the    theft in the Circuit Court of the City of Alexandria for embezzling
appearance of a conﬂict of interest. The ofﬁcial was counseled       more than $14,000 by claiming approximately 400 hours of work
and reminded of departmental expectations in this area. (Silver      he had not performed. His sentencing date is pending. (Alexandria
Spring Resident Ofﬁce)                                               Resident Ofﬁce)

Former NWS Employee Sentenced for                                    Census Employee Pleads Guilty to Theft
$100,000 Time and Attendance Fraud                                   of Debit Cards

A former National Weather Service employee pleaded guilty to         A Census employee was charged in July 2005 with theft and mak-
one count of theft of government property in April 2005 after an     ing false statements in a Census matter after an OIG investigation
OIG investigation disclosed that she had used her position as a      established that she had improperly negotiated 47 debit cards worth
timekeeper to process and transmit false timesheets over a 2-year    almost $2000 that were intended for distribution to the public as
period to claim more than $100,000 in overtime pay for hours she     an incentive to participate in Census surveys. The debit cards were
had not worked. In July 2005, the defendant was sentenced in U.S.    cashed in at least 21 different locations in southern Ohio, western
District Court for the Eastern District of New York to 6 months’     West Virginia, and northern Kentucky. In the process, the employee
home detention, 3 years’ probation, and 300 hours of community       submitted falsiﬁed survey forms to account for the missing cards.
service. The employee resigned from government service in August     On September 15, 2005, the employee pleaded guilty to theft of
2005 upon receiving notice of her proposed removal; restitution      government property in U.S. District Court for the Southern Dis-
to NOAA for the full amount of her theft had been made prior         trict of Ohio. Sentencing is pending. (Denver Resident Ofﬁce)
to sentencing. As a result of our investigation, various policy
changes have been implemented in the defendant’s former ofﬁce.




44                                                                              U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                               Ofﬁce of Inspector General



Census Employee Arrested for Theft of
Debit Cards

In July 2005, OIG agents arrested a Census employee in New
York City on theft charges after an investigation established that
she had stolen and cashed approximately 73 survey debit cards,
valued at $40 each, at various ATM locations throughout the city.
The employee was responsible for maintaining and distributing the
debit cards to ﬁeld representatives for use in completing surveys.
Prosecution is pending in U.S. District Court for the Southern
District of New York. (Washington Field Ofﬁce)

CRIMINAL USE AND MISUSE OF
GOVERNMENT COMPUTERS

The Ofﬁce of Investigations has dedicated considerable resources
to improving its capabilities in the area of information technol-     OIG special agents move seized computers and documents to the
ogy security and integrity of government computer systems. Our        evidence room.
Washington Field Ofﬁce now has a full-time, well-equipped, and        Source: OIG.
highly trained Computer Crimes Unit under its own assistant spe-
cial agent-in-charge. This unit has aggressively and successfully
pursued investigations into the criminal misuse of government         documents stored on his computer hard drive contained conﬁrma-
computers, particularly in the area of Internet child pornography.    tions of the employee’s subscriptions to various child pornography
During this semiannual reporting period, there were signiﬁcant        websites and evidence of child molestation. Because the employee
developments in several such investigations and criminal pros-        was acting as a foster parent to two small children, we also alerted
ecutions. Each of these cases represents a sizable but necessary      local Child Protective Services, which initiated appropriate follow-
investment of time and resources to eliminate destructive and         up actions. The individual resigned his position at Census in 2004
unacceptable conduct through successful prosecution and effec-        after initiation of our investigation. His sentencing was pending at
tive deterrence.                                                      the close of the reporting period. (Washington Field Ofﬁce)

Former Census Employee Convicted on                                   Former USPTO Employee Sentenced on
Child Pornography Charge                                              Child Pornography Conviction

In May 2005, a former statistical mathematician at the Bureau of      In our March 2005 Semiannual Report (page 35), we reported
the Census was convicted in U.S. District Court for the Southern      the conviction of a former patent examiner for possession of
District of Indiana on one count of possessing child pornography      child pornography, which resulted from an OIG investigation
in violation of 18 USC 2252, after an OIG investigation established   that found he had downloaded hundreds of child pornographic
that he had used his government computer to download sexually         images to both his government and home computers. On April
explicit images of children. When OIG investigators examined          22, 2005, the defendant was sentenced in U.S. District Court for
the employee’s computer, they discovered several hundred por-         the Eastern District of Virginia to 30 months’ incarceration, fol-
nographic images of children and more than 200 web e-mail links       lowed by 5 years’ supervised probation. Upon release, he will also
relating to the acquisition of logins and passwords for sites that    be required to register as a sex offender in his state of residence.
hosted child pornographic images. In addition, e-mail and other       (Washington Field Ofﬁce)




September 2005/Semiannual Report to Congress                                                                                          45
Ofﬁce of Inspector General




TABLES AND STATISTICS



Statistical Overview

  TABLES                                                                                                                                                                       PAGE

  1. Investigative Statistical Highlights for this Period .................................................................................................................46

  2. Audit Resolution Follow-Up .................................................................................................................................................. 47

  3. Audit and Inspection Statistical Highlights for this Period ....................................................................................................47

  4. Audits with Questioned Costs ................................................................................................................................................47

  5. Audits with Recommendations that Funds Be Put to Better Use ...........................................................................................48

  APPENDIXES

  A. Report Types this Period .......................................................................................................................................................49

       A-1. Performance Audits ........................................................................................................................................................49

       A-2. Financial Assistance Audits ...........................................................................................................................................50

       A-3. Inspections and Systems Evaluations ............................................................................................................................51

  B. Processed Audit Reports.........................................................................................................................................................51

       B-1. Processed Reports with Audit Findings .........................................................................................................................52



Table 1. Investigative Statistical Highlights                                                     Audit Resolution and Follow-up
for this Period
                                                                                                  The Inspector General Act Amendments of 1988 require us to
  Criminal Investigative Activities                                                               present in this report those audits issued before the beginning of
  Arrests                                                                          6              the reporting period (April 1, 2005) for which no management
  Indictments and informations                                                    10              decision had been made by the end of the period (September 30,
  Convictions                                                                      9              2005). Five audit reports remain unresolved for this reporting
  Personnel actions                                                                4              period (see pages 14 and 31).
  Fines, restitutions, judgments, and other civil
      and administrative recoveries                                     $141,885                  Department Administrative Order 213-5, Audit Resolution and
                                                                                                  Follow-up, provides procedures for management to request a
  Allegations Processed                                                                           modiﬁcation to an approved audit action plan or for a ﬁnancial
                                                                                                  assistance recipient to appeal an audit resolution determination.
  Accepted for investigation                                                      45              The following table summarizes modiﬁcation and appeal activity
  Referred to operating units                                                     51              during the reporting period.
  Evaluated but not accepted for
     investigation or referral                                                   18
  Total                                                                         114




46                                                                                                               U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                                                  Ofﬁce of Inspector General




Table 2. Audit Resolution Follow-Up                                                    Table 3. Audit and Inspection Statistical
                                                                                       Highlights for this Period
    Report Category                           Modiﬁcations          Appeals
                                                                                          Questioned costs                                           $15,510,326*
    Actions pending (April 1, 2005)                    0                 9
                                                                                          Value of audit recommendations
    Submissions                                        1                 5                that funds be put to better use                                   734,951

    Decisions                                          1                 4                Value of audit recommendations
                                                                                          agreed to by management                                         1,223,803
    Actions pending (September 30, 2005)               0                10
                                                                                          Value of inspection recommendations
                                                                                          that funds be put to better use                                   290,737

                                                                                       *This number includes costs questioned by state and local government auditors
                                                                                       or independent public accountants.




Table 4. Audits with Questioned Costs

    Report Category                                                                            Number           Questioned Costs             Unsupported Costs

    A. Reports for which no management decision had been made
       by the beginning of the reporting period                                                     25              $ 18,188,059                   $ 6,451,608

    B. Reports issued during the reporting period                                                   23                 15,510,326                     2,735,230

        Total reports (A+B) requiring a management decision
        during the reporting period1                                                                48                 33,698,385                     9,186,838

    C. Reports for which a management decision was made
       during the reporting period2                                                                 21                  6,429,166                     3,228,585

        i. Value of disallowed costs                                                                                    1,059,407                        259,993

        ii. Value of costs not disallowed                                                                               5,369,759                     2,968,592

    D. Reports for which no management decision had been
       made by the end of the reporting period                                                      27                 27,269,219                     5,958,253
1
 Four audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 5). However, the dollar amounts
do not overlap.

2
 In Category C, lines i a�




September 2005/Semiannual Report to Congress                                                                                                                       47
Ofﬁce of Inspector General




Table 5. Audits with Recommendations that Funds Be Put to Better Use

    Report Category                                                                                                       Number                               Value

    A. Reports for which no management decision had been made
       by the beginning of the reporting period                                                                                 3                             $421,340

    B. Reports issued during the reporting period                                                                               3                              734,951

        Total reports (A+B) requiring a management decision
        during the reporting period1                                                                                            6                         1,156,291

    C. Reports for which a management decision was made
       during the reporting period2                                                                                             4                              446,157

        i. Value of recommendations agreed to by management                                                                                                    164,396

        ii. Value of recommendations not agreed to by management                                                                                               281,763

    D. Reports for which no management decision had been made
       by the end of the reporting period                                                                                       2                              710,134

1
 Four audit reports included in this table are also included in the reports with questioned cost (see table 4). However, the dollar amounts do not overlap.

2
 In Category C, lines i a�



Deﬁnitions of Terms Used                                                                Recommendation that funds be put to better use: an OIG
in the Tables                                                                           recommendation that funds could be used more efﬁciently if
                                                                                        Commerce management took action to implement and complete
Questioned cost: a cost questioned by OIG because of (1) an al-                         the recommendation, including (1) reductions in outlays; (2) de-
leged violation of a provision of a law, regulation, contract, grant,                   obligation of funds from programs or operations; (3) withdrawal
cooperative agreement, or other agreement or document governing                         of interest subsidy costs on loans or loan guarantees, insurance,
the expenditure of funds; (2) a ﬁnding that, at the time of the audit,                  or bonds; (4) costs not incurred by implementing recommended
such cost is not supported by adequate documentation; or (3) a                          improvements related to Commerce, a contractor, or a grantee;
ﬁnding that an expenditure of funds for the intended purpose is                         (5) avoidance of unnecessary expenditures identiﬁed in preaward
unnecessary or unreasonable.                                                            reviews of contracts or grant agreements; or (6) any other savings
                                                                                        speciﬁcally identiﬁed.
Unsupported cost: a cost that, at the time of the audit, is not
supported by adequate documentation. Questioned costs include                           Management decision: management’s evaluation of the ﬁndings
unsupported costs.                                                                      and recommendations included in the audit report and the issuance
                                                                                        of a ﬁnal decision by management concerning its response.




48                                                                                                    U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                       Ofﬁce of Inspector General




APPENDIX A. REPORT TYPES THIS PERIOD

  Type                                                                Number of Reports          Appendix Number

  Performance audits                                                           5                        A-1

  Financial assistance audits                                                  11                       A-2

  Inspections and systems evaluations                                          6                        A-3

  Total                                                                      22



APPENDIX A-1. PERFORMANCE AUDITS

                                                                                                        Funds to
                                                                                                        Be Put to
  Report Title                                                 Report Number        Date Issued         Better Use

  Minority Business Development Agency

  Value of MBDA Performance Measures is Undermined by
  Inappropriate Combining of Program Results and Unreliable
  Performance Data from MBOC Program                           FSD-17252-5-0001       09/30/05                —

  National Oceanic and Atmospheric Administration

  Opportunities to Strengthen Internal Controls
  Over Improper Payments                                       BSD-16186-5-0001       07/08/05                —

  The NMFS Review Process for the California Central
  Valley and State Water Projects’ Biological Opinion
  Deviated from the Region’s Normal Practice                   STL-17242-5-0001       07/08/05                —

  Follow-up Audit of Inspection Report OSE-15676 Acquisition
  of NEXRAD Transition Power Source Marred by Management,
  Technical, and Contractual Problems                          BSD-17613-5-0001       09/30/05                —

  National Institute of Standards and Technology

  NIST’s Procurement Practices Have Improved But Additional
  Challenges Remain                                            BSD-16656-5-0001       09/30/05                —




September 2005/Semiannual Report to Congress                                                                        49
Ofﬁce of Inspector General




APPENDIX A-2. FINANCIAL ASSISTANCE AUDITS

                                                                           Value of
                                                                          Funds to       Federal         Federal
                                                              Date        Be Put to      Amount          Amount
  Report Title                             Report Number     Issued       Better Use    Questioned     Unsupported

  Bureau of the Census

  Computer & Hi-Tech
  Management, Inc., VA                    DEN-17445-5-0002   09/30/05                   $ 1,486,234       $ 85,936

  Computer & Hi-Tech
  Management, Inc., VA                    DEN-17445-5-0001   09/30/05                     9,263,559         608,953

  Economic Development Administration

  Erie County Industrial
  Development Agency, NY                  ATL-16533-5-0001   09/27/05       703,718        221,691          105,218

  Minority Business Development Agency

  National Minority Supplier
  Development Council of Florida          ATL-17363-5-0001   09/29/05

  Wisconsin Business
  Resource Center, Inc.                   DEN-17423-5-0001   09/30/05

  National Institute of Standards & Technology

  BRAINSTORM
  Technology, LLC, NY                     DEN-17247-5-0001   08/05/05                         1,506

  Targacept, Inc., NC                     DEN-17248-5-0001   08/24/05

  Actuality Systems, Inc., MA             DEN-16980-5-0001   09/13/05                         2,855             624

  National Oceanic & Atmospheric Administration

  Northwest Indian Fisheries
  Commission, Audit of Subgrant
  with the Nisqually Tribe, WA            STL-16657-5-0005   07/21/05                      695,868          695,868

  Northwest Indian Fisheries
  Commission, Audit of Subgrant
  with the Quinault Tribe, WA             STL-16657-5-0007   09/30/05                      382,060          366,772

  Northwest Indian Fisheries
  Commission, Audit of Subgrant
  with the Quileute.Tribe, WA             STL-16657-5-0008   09/30/05                      761,785          750,141




50                                                                U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                                                        Ofﬁce of Inspector General




APPENDIX A-3. INSPECTIONS AND SYSTEM EVALUATIONS

                                                                                                                                                                   Funds to
                                                                                                                                                                  Be Put to
  Agency                   Report Title                                                                Report Number                       Date Issued            Better Use

  Census                   FDCA Program for 2010 Census Is
                           Progressing, but Key Management and
                           Acquisition Activities Need to Be Completed                                     OSE-17368                         08/05/05                  —

  NOAA                     The Northeast River Forecast Center Is Well
                           Managed, But Some Improvements Are Needed                                        IPE-17259                        08/01/05                  —

  ITA                      Better Management of the Overseas Security
                           Program and Security Funds Is Needed                                             IPE-17446                        09/30/05              $290,737

  Ofﬁce of the             Commerce’s Emergency Preparedness Efforts
  Secretary                Are Improving, but Additional Management
                           Guidance and Oversight Are Needed                                                IPE-17198                        08/19/05                  —

                           FY 2005 FISMA Evaluation                                                        OSE-17131                         10/07/05                  —

  USPTO                    Information Security in Contracts Needs
                           Better Enforcement and Oversight                                                OSE-17455                         09/30/05                  —




APPENDIX B. PROCESSED AUDIT REPORTS

The Ofﬁce of Inspector General reviewed and accepted 157audit reports prepared by independent public accountants and local, state,
and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/or non-
ﬁnancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                          Audits

  Economic Development Administration �                                                                                                                                 23

  National Institute of Standards and Technology* ........................................................................................................................76

  National Oceanic and Atmospheric Administration ..................................................................................................................... 13

  National Telecommunications and Information Administration .................................................................................................... 3

  Multiagency ..................................................�                                                                                                       38

  Agency not identiﬁed .....................................�                                                                                                             4

  Total                                                                                                                                                                 57

*Includes 74 ATP program-speciﬁc audits.




September 2005/Semiannual Report to Congress                                                                                                                               51
Ofﬁce of Inspector General




APPENDIX B 1. PROCESSED REPORTS WITH AUDIT FINDINGS

                                                                             Value of
                                                                            Funds to       Federal         Federal
                                                               Date         Be Put to      Amount          Amount
  Report Title                             Report Number      Issued        Better Use    Questioned     Unsupported

  Economic Development Administration

  Native American Development
  Corporation, MT                          ATL-09999-5-2077   08/23/05                       $15,350

  Seneca County Industrial Development
  Agency, Inc., NY                         ATL-09999-5-2192   09/22/05                        59,772

  Southwestern Wisconsin Regional
  Planning Commission                      ATL-09999-5-2099   09/28/05                        25,352

  National Institute of Standards and Technology

  CombineNet, Inc., PA                    DEN-09999-5-1741    04/01/05

  GSE, Inc., NV                            ATL-09999-5-1939   06/10/05        $24,817

  Evergreen Solar, Inc., MA               DEN-09999-5-1825    06/30/05                       493,969

  E.I. duPont de Nemours & Co.,
  CR&D, DE                                 ATL-09999-5-2019   07/06/05                     1,265,851

  Gene Network Sciences, Inc., NY          ATL-09999-5-1924   07/06/05                       179,795

  Immerge BioTherapeutics, Inc., MA        ATL-09999-5-1948   07/06/05                          6,275

  Xradia, Inc., CA                         ATL-09999-5-1929   07/06/05        6,416           10,688

  IBM T.J. Watson Research Center, NY      ATL-09999-5-1968   08/03/05                       297,809

  Teranex, Inc., FL                        ATL-09999-5-2027   08/03/05                        34,622

  Agility Communications, Inc., CA         ATL-09999-5-1977   08/23/05                        45,967

  Imaging Systems Technology, Inc., OH     ATL-09999-5-1948   09/09/05                        46,242

  RheoGene, Inc., PA                       ATL-09999-5-2163   09/09/05                       121,718         $121,718

  Cabot Superior MicroPowders, NM         DEN-09999-5-1654    09/14/05                        22,300

  Alfred University, NY                    ATL-09999-5-2182   09/28/05                        69,058




52                                                                  U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                                                                Ofﬁce of Inspector General




REPORTING REQUIREMENTS

The Inspector General Act of 1978, as amended, speciﬁes reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section                            Topic                                                                                                                                      Page

  4(a)(2) ............................ Review of Legislation and Regulations ........................................................................................ 53–54

  5(a)(1) ............................ Signiﬁcant Problems, Abuses, and Deﬁciencies ............................................................................ 11–39

  5(a)(2) ............................ Signiﬁcant Recommendations for Corrective Action..................................................................... 11–39

  5(a)(3) ............................ Prior Signiﬁcant Recommendations Unimplemented ..........................................................................53

  5(a)4 .............................. Matters Referred to Prosecutive Authorities ........................................................................................46

  5(a)(5) and 6(b)(2) ......... Information or Assistance Refused .....................................................................................................54

  5(a)(6) ............................ Listing of Audit Reports ................................................................................................................ 46–52

  5(a)(7) ............................ Summary of Signiﬁcant Reports ................................................................................................... 11–39

  5(a)(8) ............................ Audit Reports—Questioned Costs ...................................................................................................... 47

  5(a)(9) ............................ Audit Reports—Funds to Be Put to Better Use....................................................................................48

  5(a)(10) .......................... Prior Audit Reports Unresolved .......................................................................................................... 54

  5(a)(11) .......................... Signiﬁcant Revised Management Decisions ........................................................................................54

  5(a)(12) .......................... Signiﬁcant Management Decisions with which OIG Disagreed .........................................................54



Section 4(a)(2): Review of Legislation and                                                      Section 5(a)(3): Prior Signiﬁcant
Regulations                                                                                     Recommendations Unimplemented

This section requires the inspector general of each agency to                                   This section requires identiﬁcation of each signiﬁcant recom-
review existing and proposed legislation and regulations relating                               mendation described in previous semiannual reports for which
to that agency’s programs and operations. Based on this review,                                 corrective action has not been completed. Section 5(b) requires
the inspector general is required to make recommendations in the                                that the Secretary transmit to Congress statistical tables showing
semiannual report concerning the impact of such legislation or                                  the number and value of audit reports for which no ﬁnal action has
regulations on the economy and efﬁciency of the management of                                   been taken, plus an explanation of the reasons why recommended
programs and operations administered or ﬁnanced by the agency                                   action has not occurred, except when the management decision
or on the prevention and detection of fraud and abuse in those                                  was made within the preceding year.
programs and operations. Comments concerning legislative and
regulatory initiatives affecting Commerce programs are discussed,                               To include a list of all signiﬁcant unimplemented recommenda-
as appropriate, in relevant sections of the report.                                             tions in this report would be duplicative. Information on the status
                                                                                                of any audit recommendations can be obtained through OIG’s
                                                                                                Ofﬁce of Audits.




September 2005/Semiannual Report to Congress                                                                                                                                         53
Ofﬁce of Inspector General




Sections 5(a)(5) and 6(b)(2): Information or                           Section 5(a)(11): Signiﬁcant Revised
Assistance Refused                                                     Management Decisions

These sections require a summary of each report to the Secretary       This section requires an explanation of the reasons for any signiﬁ-
when access, information, or assistance has been unreasonably          cant revision to a management decision made during the reporting
refused or not provided. There were no instances during this           period. Department Administrative Order 213-5, Audit Resolution
semiannual period and no reports to the Secretary.                     and Follow-up, provides procedures for revising a management
                                                                       decision. For performance audits, OIG must be consulted and must
Section 5(a)(10): Prior Audit Reports                                  approve in advance any modiﬁcation to an audit action plan. For
Unresolved                                                             ﬁnancial assistance audits, OIG must concur with any decision
                                                                       that would change the audit resolution proposal in response to an
This section requires a summary of each audit report issued before     appeal by the recipient. The decisions issued on one modiﬁcation
the beginning of the reporting period for which no management          and four appeals of audit-related debts were ﬁnalized with the full
decision has been made by the end of the reporting period (includ-     participation and concurrence of OIG.
ing the date and title of each such report), an explanation of why a
decision has not been made, and a statement concerning the desired     Section 5(a)(12): Signiﬁcant Management
timetable for delivering a decision on each such report. There were    Decisions with Which OIG Disagreed
three Census and two NIST reports more than 6 months old.
                                                                       This section requires information concerning any signiﬁcant
                                                                       management decision with which the inspector general disagrees.
                                                                       Department Administrative Order 213-5 provides procedures for
                                                                       elevating unresolved audit recommendations to higher levels of
                                                                       Department and OIG management, including their consideration
                                                                       by an Audit Resolution Council. During this period no audit issues
                                                                       were referred to the council.




54                                                                                U.S. Department of Commerce/Ofﬁce of Inspector General
ACRONYMS
ATP........................................................................................................................................................... Advanced Technology Program

BEA.............................................................................................................................................................Bureau of Economic Analysis

BIS .......................................................................................................................................................... Bureau of Industry and Security

CAM ........................................................................................................................................................ Commerce Acquisition Manual

CAMS ............................................................................................................................Commerce Administrative Management System

CBS ..............................................................................................................................................................Commerce Business Systems

C&A ............................................................................................................................................................ certiﬁcation and accreditation

CIO...................................................................................................................................................................... chief information ofﬁcer

CS............................................................................................................................................................................... Commercial Service

DS .............................................................................................................................................................................. Diplomatic Security

EAR.....................................................................................................................................................Export Administration Regulations

EDA ............................................................................................................................................ Economic Development Administration

ESA ............................................................................................................................................Economics and Statistics Administration

ESA ......................................................................................................................................................................Endangered Species Act

FDCA ................................................................................................................................................... Field Data Collection Automation

FISMA .............................................................................................................................Federal Information Security Management Act

GAO .................................................................................................................................................... Government Accountability Ofﬁce

GIS .........................................................................................................................................................Geographic Information Systems

GPS ..................................................................................................................................................................Global Positioning System

GSA................................................................................................................................................................Government Printing Ofﬁce

GPRA ...................................................................................................................................... Government Performance and Results Act

IG .................................................................................................................................................................................... inspector general

IT ........................................................................................................................................................................... information technology

ITA ...................................................................................................................................................... International Trade Administration

MBDA....................................................................................................................................... Minority Business Development Agency

MBOC ....................................................................................................................................... Minority Business Operating Committee




September 2005/Semiannual Report to Congress                                                                                                                                                     55
Acronyms




MEP ................................................................................................................................................Manufacturing Extension Partnership

NDAA ............................................................................................................................................... National Defense Authorization Act

NIST................................................................................................................................ National Institute of Standards and Technology

NMFS................................................................................................................................................... National Marine Fisheries Service

NOAA ........................................................................................................................National Oceanic and Atmospheric Administration

NPOESS......................................................................................... National Polar-orbiting Operational Environmental Satellite System

NTIA .......................................................................................................National Telecommunications and Information Administration

NWS...................................................................................................................................................................National Weather Service

OCAP .......................................................................................................................................................... Operations, Criteria, and Plan

OHR ............................................................................................................................................................... Ofﬁce of Human Resources

OIG .................................................................................................................................................................Ofﬁce of Inspector General

OMB ................................................................................................................................................... Ofﬁce of Management and Budget

OSY................................................................................................................................................................................ Ofﬁce of Security

RFC .............................................................................................................................................................................river forecast center

RLF ............................................................................................................................................................................. revolving loan fund

USPTO ................................................................................................................................... United States Patent and Trademark Ofﬁce

VoIP................................................................................................................................................................ voice over Internet Protocol

WFO....................................................................................................................................................................... weather forecast ofﬁce




56                                                                                                                    U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                          Ofﬁce of Inspector General




TYPES OF OIG WORK PRODUCTS


The various kinds of audits, evaluations, inspections, and investi-     focuses, such as an entity’s compliance with laws and regulations;
gations at our disposal enable the IG’s ofﬁce to assess Commerce        management’s discussion and analysis presentations; and allow-
programs and operations from a range of perspectives. Thus we           ability and reasonableness of ﬁnal grant and contract costs.
are able to provide program managers with reviews and recom-
mendations that are either narrowly focused or comprehensive, as        INSPECTIONS
needed, to aid them in ensuring the most efﬁcient and effective
use of taxpayer dollars.                                                Inspections are reviews of an activity, unit, or ofﬁce, or a con-
                                                                        tractor or other nonfederal entity that receives funds from the
AUDITS                                                                  Department. They focus on an organization, not a whole program,
                                                                        and are often designed to give agency managers timely and useful
Performance Audits address the efﬁciency, effectiveness, and            information about operations, including current and foreseeable
economy of the Department’s programs, activities, and informa-          problems.
tion technology systems. They may check a unit’s compliance
with laws and regulations, and evaluate its success in achiev-          EVALUATIONS
ing program objectives. They may also involve reviewing the
Department’s ﬁnancial assistance awards by assessing an award           Program Evaluations are in-depth reviews of speciﬁc manage-
recipient’s compliance with laws, regulations, and award terms;         ment issues, policies, or programs.
allowance of costs; and the degree to which projects achieved
intended results.                                                       Systems Evaluations review system development, acquisitions,
                                                                        operations, and policy, focusing on computer systems and other
Financial Audits determine whether (1) a reporting entity’s             technologies.
ﬁnancial statements are presented fairly and in accordance with
generally accepted accounting principles; (2) the entity has an
internal control structure that provides reasonable assurance of        INVESTIGATIONS
achieving the control objectives set forth by OMB; and (3) the en-
tity complied with laws and regulations that could have a direct and    Investigations are conducted based on alleged or suspected
material effect on the ﬁnancial statements, the Federal Financial       wrongdoing by Department employees, contractors, recipients of
Management Improvement Act, and other laws and regulations.             ﬁnancial assistance, and others responsible for handling federal
                                                                        resources. Investigations that expose violations of Department
Attestation Engagements involve examining, reviewing, or                rules and regulations or acts of fraud committed against the U.S.
performing agreed-upon procedures on a subject matter or an as-         government can result in administrative sanctions and/or criminal
sertion about a subject matter and reporting the results. Attestation   or civil prosecution.
engagements can have a broad range of ﬁnancial or nonﬁnancial




September 2005/Semiannual Report to Congress                                                                                           57
58   U.S. Department of Commerce/Ofﬁce of Inspector General
